<html>
<title> - DEPARTMENT OF HOMELAND SECURITY INTELLIGENCE AND BORDER SECURITY: DELIVERING OPERATIONAL INTELLIGENCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]







 
   DEPARTMENT OF HOMELAND SECURITY INTELLIGENCE AND BORDER SECURITY: 
                  DELIVERING OPERATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2006

                               __________

                           Serial No. 109-89

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2007
34-854

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENT

The Honorable Rob Simmons, a Representative in Congress For the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress For the 
  State of California and Ranking Member, Subcommittee on 
  Intelligence, Informaton Sharing, and Terrorism Risk Assessment     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  For the State of Mississippi, (ex officio).....................     4
The Honorable Mark E. Souder, a Representative in Congress For 
  the State of Indiana...........................................    12
The Honorable Jim Gibbons, a Representative in Congress For the 
  State of Nevada................................................    16
The Honorable Jane Harman, a Representative in Congress For the 
  State of California............................................    20
The Honorable Nita M. Lowey, a Representative in Congress For the 
  State of New York..............................................    38

                               WITNESSES

                                Panel I

Mr. Charles E. Allen, Chief Intelligence Officer, Office of 
  Intelligence and Analysis, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                                Panel II

Mr. L. Thomas Bortmes, Director, Office of Intelligence, Customs 
  and Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Ms. Cynthia O'Connell, Acting Director, Office of Intelligence, 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. James Sloan, Assistant Commandant for Intelligence, U.S. 
  Coast Guard, U.S. Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                               Panel III

Mr. Michael W. Cutler, Fellow Center for Immigration Studies:
  Oral Staement..................................................    44
  Prepared Statement.............................................    46
Mr. Michael O'Hanlon, Senior in Foreign Policy Studies, Brookings 
  Institution:
  Oral Statement.................................................    48
  Prepared Statement.............................................    49

                        Questions for the Record

Questions from Representative Rob Simmons for Assistant Secretary 
  Charles Allen..................................................    60


     DHS INTELLIGENCE AND BORDER SECURITY: DELIVERING OPERATIONAL 
                              INTELLIGENCE

                              ----------                              


                        Wednesday, June 28, 2006

                          House of Representatives,
                    Committee on Homeland Security,
                Subcommittee on Intelligence, Information .
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Souder, Gibbons, Dent, 
Lofgren, Harman, Lowey and Thompson (ex officio).
    Mr. Simmons. A quorum being present, the Committee on 
Homeland Security, Subcommittee on Intelligence, Information 
Sharing and Terrorism Risk Assessment will come to order.
    Today the subcommittee meets to hear testimony on the 
Department of Homeland Security's border security intelligence 
operations. One of the Department's primary jobs is to secure 
the homeland against the illegal entry of people, goods and 
illicit materials. The 9/11 Commission wrote in their 
comprehensive study, and I quote, targeting travel is at least 
as powerful a weapon against terrorists as targeting their 
money. The United States should combine terrorist travel 
intelligence, operations and law enforcement in a strategy to 
intercept terrorists, fine terrorist travel facilitators and 
constrain terrorist mobility.
    DHS works to do this through the hard work of people, 
through U.S. Customs and Border Protection, Immigration and 
Customs Enforcement and the United States Coast Guard, among 
others in the intelligence and law enforcement communities. But 
as we all know, thousands of people illegally stream across our 
international borders.
    The 9/11 Commission estimated that annually approximately 
500,000 people enter this country illegally, without 
inspection, and overstay their legal welcome. Many come for 
opportunities that America provides, and we understand that, 
but others have a more sinister intent. In order to better 
protect our borders, we need to know who is attempting to 
cross, and what are they bringing into this country, and why.
    Our border immigration and Coast Guard officials protect 
more than 5,000 miles of the border with Canada, 1,900 miles of 
border with Mexico, and approximately 12,400 miles of shoreline 
east and west. To protect this vast international border, 
intelligence-driven operations will be the key to targeting and 
interdicting these threats before their arrival.
    On a typical day Federal officials will apprehend over 
3,000 people trying to cross between ports of entry, and on a 
typical day will intercept one person for terrorism or national 
security-related reasons. These apprehensions net fraudulent 
documents and seemingly innocuous pocket litter, both of which 
can have tremendous intelligence value. Therefore, DES 
frontline operators must have the tools, the training, 
capability and processes in place to weave the information from 
these everyday encounters into a comprehensive intelligence 
picture.
    In addition to those who try to cross our borders 
illegally, on a typical day approximately 1,200,000 people and 
passengers arrive at our ports of entry, and approximately 
80,000 shipments of goods arrive for approved entry. Nothing 
wrong with this, we want to encourage this. And we must make 
sure that this lawful travel and lawful commercial activity 
proceeds efficiently, without undue delay, while focusing again 
on those who deserve additional scrutiny. It is a daunting but 
necessary task.
    Today we will hear from Charlie Allen, the Chief 
Intelligence Officer of the Department of Homeland Security, 
who will give an overall perspective of the Department's 
strategic intelligence efforts and his support to DHS 
operational components. Again, welcome, Mr. Allen. This task is 
a huge task and a new task for United States as Americans.
    Next we will hear from the Coast Guard, the Customs and 
Border Patrol and the ICE on how they incorporate intelligence 
into their operations, and on how the Office of Intelligence 
and Analysis is supporting their efforts.
    And then finally, our third panel will consistent of Mr. 
Michael W. Cutler from the Center for Immigration Studies, and 
Mr. Michael O'Hanlon from the Brookings Institute, who will 
provide the subcommittee with their perspective on how 
intelligence can best be used to secure and control America's 
borders.
    Mr. Simmons. The Chair is now happy to recognize the 
Ranking Member of the subcommittee, the gentlelady from 
California, Ms. Lofgren for her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    While I am pleased that we are finally turning our 
attention today to the question of intelligence and border 
security, I must say, Mr. Chairman, this hearing and other 
hearings the Republican leadership has scheduled in the next 
few months are a day late and dollar short--correction, we are 
6 years late and millions of dollars short.
    President Bush took office in 2001, and this Congress has 
been controlled by Republicans since 1995. The Senate, with one 
exception, has had a majority of Republicans since 1995. The 
Federal Government, charged with making and enforcing the laws 
of this Nation, have been under the sole control of Republicans 
for the last 6 years.
    With complete control of legislation and enforcement of the 
law for 6 years, you would think that a party that now calls so 
vigor

[[Page 3]]

ously for border security and enforcement of immigration law 
could have solved the problem of illegal immigration by now, 
but, Mr. Chairman, the Republican Party seems to be all talk on 
this subject.
    Here is just a partial list of the failures presided over 
by the Republican majority on illegal immigration.
    Since 1996, when the Senate and the House were taken over 
by the Republican Party, 5.3 million undocumented immigrants 
came to the United States. Since 2003, when President Bush came 
to power, over 2 million undocumented immigrants have entered 
the United States.
    In 2004, Congress enacted the Intelligence Reform Act, or 
the 9/11 Act, which mandated an additional 2,000 Border Patrol 
agents being hired over each of the next 5 years. But the 
President's subsequent budgets and Congress have failed to 
include adequate resources to implement the act. Indeed, the 
President's fiscal year 2006 budget called for only 210 
additional Border Patrol agents. In fiscal year 2006, the 
Congress, with both House and Senate controlled by Republicans, 
eventually funded only 1,000 additional agents.
    The 9/11 Act also mandated an additional 800 immigration 
enforcement agents over each of the next 5 years, and yet for 
fiscal year 2006, the Congress funded only 350 additional 
agents. The act also mandated an additional 8,000 detention 
beds, but for fiscal year 2006, the Congress funded only 1,800 
additional detention beds.
    President Bush and the House Republicans continue to 
underfund the Border Patrol. The President's fiscal year 2007 
budget does not fully fund the authorized levels for the Border 
Patrol.
    During the Bush administration, Catch and Release has been 
rampant, a program under which 12,000 undocumented immigrants 
each month are apprehended from countries other than Mexico and 
are released and allowed to live in the United States while 
awaiting a deportation hearing, yet the Federal Government, 
which is completely controlled by Republicans, 70 percent of 
the OTMs are released into the interior with notices to appear 
at a later date and are never heard from again.
    According to the Washington Post, between 1999 and 2003, 
work-site enforcement operations were scaled back 95 percent by 
the Immigration and Naturalization Service. The number of 
employers prosecuted for unlawfully employing immigrants 
dropped from 182 in 1999 to only 4 in 2003. And fines collected 
declined from $3.6 million to 212,000. In 1999, the United 
States initiated fines against 417 companies; in 2004, it 
issued fine notices to only three.
    Next to nothing has been done to secure our northern border 
at a time when 17 suspected terrorists were arrested in 
Toronto, and there are reportedly 50 terrorist groups in 
Canada. The millennium bomber was arrested as he attempted to 
cross the northern border with explosives, and the 
Congressional Research Service says that Canada is, quote, ``a 
favored destination for terrorist groups as a safe haven, 
transit point and place to raise funds.''
    While the Republican leadership in Congress focuses on the 
southern border, with 10,000 Border Patrol agents stationed 
along a 2,000-mile border with Mexico, only one-tenth of that 
amount is on the Canadian border, a border that is 2.5 times as 
long as the Mexican border. Recent news stories state that 
people drive, walk, sail, ski and sled across the northern 
border all the time.
    On December 16, 2005, all 219 House Republicans voting that 
day opposed a proposal, the Democratic motion to approve border 
security and immigration enforcement by fulfilling the 9/11 
Commission's border security recommendations. The proposal 
would have hired more border guards; ended the Catch and 
Release practice by authorizing 100,000 additional detention 
beds; and incorporated state-of-the art technology, including 
cameras, sensors, radar satellites and unmanned aerial vehicles 
in order to ensure 100 percent border coverage.
    In 2005, all but one Republican voted against a 
comprehensive Homeland Security proposal that would commit 41 
billion to securing the Nation from terrorists, 6.9 million 
more than the President's budget. In 2005, all but two 
Republicans voted against an effort to add $284 million to an 
emergency spending bill for securing the Nation's borders.
    Mr. Chairman, there has been a lot of talk about 
immigration these days, tough talk, but the pattern is talk and 
not action. And I say this because I have been made aware that 
there is a schedule--and this hearing, I think, is on that 
schedule, and I was on a hearing last week that was part of 
this schedule--to raise the issue of immigration, and I think 
the Republican leadership has made it a political issue. There 
was the hearing in the House Administration Committee last 
week; this hearing today; on July 5th, the hearing from the 
House International Relations subcommittee in San Diego, the 
Senate Majority is on it; July-h, another hearing in Laredo, 
Texas; mid-July a hearing, House Education and Workforce; 
August 14th, Government Reform and the like.
    So I am quite skeptical that this hearing on border 
intelligence is more than talk. It seems to me this is just 
another long list of the hearings held and planned by the 
Republican-led Congress that does not lead to solutions to a 
problem that the American public cares about, and I thank the 
gentleman for recognizing me.
    Mr. Simmons. Yes. And I think some of the items that you 
have listed in your opening statement are just the reason why 
we are having this hearing today, so that we can hear from our 
Chief Intelligence Officer how he is working to incorporate the 
various components of the Department of Homeland Security 
intelligence to better address this important issue. And I 
think we understand it is an important issue, and we look 
forward to their testimony, and hopefully their statement of 
progress in these difficult issues.
    And now the Chair would like to recognize the distinguished 
Ranking Member of the full committee Mr. Thompson of 
Mississippi for any statement he would like to make.
    Mr. Thompson. Thank you very much, Mr. Chairman and Ranking 
Member. I appreciate the opportunity to participate in this 
hearing.

[[Page 5]]

    Always nice to see my friend Charlie Allen. First day of 
work he came by, and it has been a good relationship so far. I 
appreciate you, Mr. Allen.
    But for the sake of this hearing today, Mr. Chairman, we 
really should have been talking about border intelligence 5 
years ago after 9/11. If we had conducted oversight and border 
intelligence during that time, we could focus legislation more 
adequately on what our problems are now. More importantly, it 
would have given us some meaningful starting point when taking 
up border security legislation.
    Essentially we have a bill pending now that is not informed 
by what is known at the border. This Republican Congress passes 
bill after bill--and I have five different bills that we have 
passed on border security, Mr. Chairman--and nothing has 
happened with them. If we are going to do top-notch border 
intelligence, it is essential that we develop a risk-based 
approach to border security.
    The United States has 216 airports, 143 seaports, and 115 
land border crossings that are official ports of entry. 
Screening all the people and goods coming through these busy 
ports is already an enormous resource challenge for the men and 
women of the Department of Homeland Security. I have serious 
concerns that they lack the resources necessary to obtain true 
situational awareness at these locations, not to mention among 
the many hundreds of miles of unguarded rural and remote border 
locations.
    As we know, the threat to our northern border was thrown 
into sharp relief with the arrest of an apparent terrorist 
sailor in Toronto. This administration has failed to adequately 
secure our northern border by the fact that the northern border 
is more than twice the length of the southern border, with only 
one-tenth of the agents.
    State, local and tribal law enforcement is uniquely 
situated to help out with border intelligence where resources 
are stretched thin. What I am hearing from police and sheriffs' 
offices, however, worries me. When it comes to border security, 
the Department should have an all-hands-on-deck attitude. 
Instead, I hear CBP holds back information from local law 
enforcement because they view locals as competitors. Some local 
officers tell me that if they arrest someone coming over the 
border illegally, CBP headquarters sees it as a black eye for 
them.
    Making matters worse, officers in northern border 
communities have told me that they often receive more specific 
and actionable information from their Canadian colleagues than 
they do from the Department. Add to this the fact that border 
security is a Federal responsibility, Mr. Chairman, and yet 
this administration has passed the buck to State and local 
authorities in some areas, relying on them to do its job, 
without providing adequate support.
    Whether it is a turf issue, a resource issue or something 
else, this is unacceptable. CBP, ICE and the Coast Guard need 
to adopt common and consistent practices to share information 
with all their border security partners. While I had high hopes 
for the Homeland Security information network as a key way to 
communicate with State and locals, moreover, I am troubled 
about a Department report yesterday that found that most 
officers either don't trust it or don't think it contains much 
useful information.

[[Page 6]]

    This hearing, therefore, is both important and timely, Mr. 
Chairman. This administration has dropped the ball on border 
security by underfunding critical programs for recruiting 
Border Patrol agents, leaving large planks of our border 
vulnerable in not procuring sufficient detention beds. 
Constructive and thoughtful Democratic amendments that seek to 
fill these critical gaps have been rejected time and again, and 
now we face a possible intelligence breakdown on our borders. 
How we proceed from here will have a big impact both on how we 
go about securing our border, and ensuring that our immigration 
laws are fully enforced.
    I welcome all the witnesses and look forward to your 
thoughts on these critical issues. I yield back.
    Mr. Simmons. I thank the Ranking Member for his comments, 
and I agree with him completely. I think this hearing is 
important, and I think it is timely. Other Members who are 
present know that they can submit opening statements for the 
record.
    Mr. Simmons. We will move now to the first panel. The 
Chairman calls the first panel, which is assembled; recognizes 
Mr.Allen as our Chief Intelligence Officer of the Department--
of the Office of Intelligence and Analysis, who reports 
directly to Secretary Chertoff. In this role, he is responsible 
for coordinating with the Intelligence Community and providing 
guidance on Homeland Security intelligence issues.
    Mr. Allen has a long and distinguished career in the U.S. 
Intelligence Community, beginning in 1958, when he joined the 
Central Intelligence Agency. He has subsequently held 
assignments of increasing responsibility within that 
organization, within the Office of Secretary of Defense, and he 
has served his country in a variety of other capacities.
    Mr. Allen, welcome. It is good to see you again. We look 
forward to your testimony.

    STATEMENT OF CHARLES E. ALLEN, ASSISTANT SECRETARY FOR 
    INTELLIGENCE AND ANALYSIS, CHIEF INTELLIGENCE OFFICER, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Mr. Chairman, Ranking Member Lofgren 
and members of the committee. I am very grateful for the 
invitation to speak to you today. I am also gratified to appear 
alongside my colleagues from the United States Coast Guard; 
Customs and Border Protection; and Immigration and Customs 
Enforcement. As members of the Homeland Security Intelligence 
Council, which I chair, they have been invaluable partners in 
realizing the Secretary's vision of an integrated Department of 
Homeland Security intelligence enterprise.
    I have a very brief statement, and I would request that my 
full statement be submitted for the record.
    Providing intelligence support to border security is a 
subject that I have devoted considerable time and energy during 
my relatively short time as Chief Intelligence Officer of the 
Department. One of my first actions was to launch an 
intelligence campaign

[[Page 7]]

plan for border security. We began this process last October by 
holding a border security intelligence conference that enabled 
us to gain inputs from a wide range of Department of Homeland 
Security and Intelligence Community partners.
    Since then we have worked on two tracks. On one track, we 
have taken concrete measures to deliver discrete, actionable 
intelligence to the men and women securing our borders. And 
although the need to protect sensitive sources and methods 
precludes my discussing these measures in detail today, I can 
tell you that members of my office have drawn on the extensive 
experience in the Intelligence Community to help the Department 
get full benefit from national collection assets, and that is a 
process that was not evident before I came. We have changed 
that substantially.
    On the other track, we have been developing a phased 
framework for sustainable intelligence support to border 
security. Our overall approach is to bring national 
intelligence to bear on the border, while at the same time 
fusing intelligence from border and immigration activities into 
an integrated threat picture, at first within individual 
sectors, but eventually across the length of the borders. The 
approach is consistent with ongoing operational efforts to push 
the border outward and to build a layered defense extending 
into the U.S. Interior.
    As befits an office with department-wide responsibilities, 
my office has focused its own staff resources on strategic 
efforts, including the development of a department-wide 
intelligence, surveillance and reconnaissance architecture; 
establishing a border security analysis branch; and working 
with interagency partners to coordinate and streamline Federal 
intelligence efforts on the border.
    Some of our efforts have had an indirect but strong effect 
on the delivery of operational intelligence in support of 
border security. Our plan for supporting State and local fusion 
centers envisions deploying DHS personnel, including 
intelligence officers, in a way that is most responsive to each 
center's particular need, including augmenting border security 
intelligence capabilities, if required.
    Our work on enhancing the Homeland Security Information 
Network, which will invigorate an important channel for sending 
intelligence to and receiving information from the State and 
local authorities.
    Finally, my office's development of an information 
architecture for the Department's intelligence enterprise will 
promote faster information sharing and greater 
interoperability, improving the delivery of operational 
intelligence in support of border security.
    In summary, my office has been an active and effective 
advocate of intelligence support to border security, deploying 
our department-wide perspective and authorities and the 
particular skills of our officers on behalf of the entire DHS 
intelligence enterprise.
    Mr. Chairman, I look forward to your questions.
    Mr. Simmons. Thank you for that testimony.
    [The statement of Mr. Allen follows:]

                 Prepared Statement of Charles E. Allen

    Chairman Simmons, Ranking Member Lofgren, Members of the 
Subcommittee,
    Thank you for inviting me to speak with you about my role in 
providing intelligence support to border security. The subject of 
today's hearing is one to which I have devoted considerable time and 
energy during my tenure as Assistant Secretary for Intelligence and 
Analysis and Chief Intelligence Officer of the Department. I am 
gratified to appear alongside my esteemed colleagues from the Coast 
Guard, Customs and Border Protection, and Immigration and Customs 
Enforcement. As members of the Homeland Security Intelligence Council, 
which I chair, they have been invaluable partners in realizing the 
Secretary's vision of an integrated DHS intelligence enterprise.
    When I arrived last September, the Office of Intelligence and 
Analysis already was leading a working group on intelligence 
initiatives in support of the Secretary's Secure Borders Initiative, or 
SBI. One of my first acts was to launch an Intelligence Campaign Plan 
for Border Security, or ICP, which Deputy Secretary Jackson introduced 
to General Michael Hayden, then the Deputy Director for National 
Intelligence, on Sept. 27, 2005. We kicked off our planning efforts by 
holding a DHS Border Security Intelligence Conference on 24-25 October, 
2005. This conference, held in a secure facility, enabled us to gather 
inputs from a wide range of DHS and Intelligence Community partners. It 
proved highly valuable to our subsequent planning.
    Among the needed improvements we identified as a result of the 
conference were greater focus on strategic analysis; coordination and 
integration of analytic efforts at both the tactical and strategic 
levels; inclusion of DHS agent and inspector insight in collection and 
exploitation activities; better-defined areas of responsibility for 
information sharing; and dissemination of-and identified repositories 
for-relevant information.
    Since then, we have worked on two tracks. On one track, we have 
taken concrete measures to deliver discrete, actionable intelligence to 
the men and women securing our borders. I would be pleased to describe 
some of these measures in a closed hearing, but the need to protect 
sensitive sources and methods precludes my discussing them in detail in 
this setting. What I can tell you is that my officers have drawn on 
their extensive experience in the Intelligence Community to help ensure 
that DHS gets full benefit from national collection assets.
    On the other track, we have been developing a phased framework for 
sustainable intelligence support to border security. Our overall 
approach is to bring national intelligence resources to bear on the 
border while at the same time fusing intelligence from DHS border and 
immigration activities into an integrated threat picture-at first 
within individual sectors, but eventually across the length of the 
border. This approach is consistent with ongoing operational efforts to 
push the border outward and build a layered defense extending into the 
US interior. In addition we are maintaining focus on all of our borders 
to include the Northern Border and maritime domain.
    In the first phase of the ICP, covering fiscal years 2006 and 2007, 
we will develop and implement a comprehensive strategy for collection 
and analysis of border security intelligence. During this phase, we 
will apply our intelligence resources and analytic focus in areas of 
immediate need. Our research will be comprehensive covering a broad 
range of topics associated with cross border violence with 
subcategories of human, drug, weapons, contraband smuggling and 
trafficking, transnational gangs, documentation fraud, and the violence 
these topics spawn on the border. The research and assessments we 
produce will include all agencies with responsibilities in these areas 
of interest. We will start with the southwest border, progressing to 
all borders based on threat assessments. We will review lessons learned 
from the first phase and make any programmatic investments and 
structural changes that flow from these findings. Finally, we will be 
on a sustainable footing, allowing us to push the borders outward while 
supporting interior enforcement.
    I should point out that even though our planning efforts pre-date 
the President's decision to deploy the National Guard to the border, we 
are taking this deployment into account. We plan to collaborate with 
the National Guard to ensure its intelligence capabilities are 
integrated with the overall intelligence enterprise at the border, 
filling in shortfalls and laying the foundation for the post-deployment 
period.
    As befits an office with Department-wide responsibilities, my 
office has focused its own staff resources on strategic efforts. In the 
area of collection and requirements, we are leading the development of 
a Department-wide intelligence, surveillance, and reconnaissance (ISR) 
architecture that will serve as the central nervous system of DHS 
intelligence. In the area of analysis and production, we have created a 
border security branch that is focusing research and analysis on a 
number of topics relevant to the border, including alien smuggling, 
counter-narcotics, money laundering, transnational criminal gangs, and 
identity theft and benefit fraud using travel documents. Finally, we 
are deeply deeply engaged in efforts to coordinate and streamline 
interagency intelligence efforts on the border, notably in El Paso, 
where three valuable intelligence centers, run by elements of three 
different Cabinet agencies, are exploring new ways to work together on 
their common mission of securing the border.
    I wish to highlight several efforts of the Office of Intelligence 
and Analysis that will have an indirect, but powerful, effect on the 
delivery of operational intelligence in support of border security. 
First, my office has led the Department's development of a plan to 
support state and local fusion centers across the country. Our plan 
envisions deploying DHS personnel, including intelligence officers, in 
a way that is most responsive to each center's particular need. If the 
fusion centers in states along the border tell us they want particular 
support in partnering with the federal government on border security, 
we stand ready to deliver. Second, we have taken on the responsibility 
for enhancing the Homeland Security Information Network, an important 
channel for sending intelligence to, and receiving information from, 
state and local authorities. Third, we are developing an information 
architecture for the DHS intelligence enterprise in order to promote 
faster information sharing and greater interoperability-characteristics 
that undoubtedly will improve the delivery of operational intelligence 
in support of border security.
    In conclusion, I believe we have been an active and effective 
advocate of intelligence support to border security, deploying our 
Department-wide perspective and authorities and the particular skills 
of our officers on behalf of the entire DHS intelligence enterprise. I 
look forward to answering your questions.
    Mr. Simmons. And in my opening statement I made reference 
to the fact that we have a 5,000-mile border with Canada, an 
undefended or demilitarized border with Canada; 1,900 miles of 
border with Mexico, again, a demilitarized or undefended, in 
some

[[Page 8]]

respects, border with Mexico; 12,400 miles of shoreline. This 
geography presents a vast challenge.
    I think back to my experience, my service in Asia, working 
on the Great Wall of China, thinking about the logistics and 
expense of creating such a great wall and then reflecting on 
the fact for all that effort, it actually did not work; it did 
not keep, if you will, the barbarian hordes from penetrating 
that country.
    So my point of view has always been very simply stated. We 
need to be intelligent about how we control our border. We need 
to focus and target our intelligence assets so we are at the 
right place at the right time, doing the right things against 
the right people.
    Some of my colleagues, as you have heard from their opening 
statements, give the impression that nothing has been done. Of 
course, in the Intelligence Community it is often best not to 
be on the front pages of the New York Times; I think we 
understand that. But from your perspective, how have we been 
focusing our intelligence assets to this problem, and what 
successes do you feel that we have had over the last several 
years--or at least since you have been in office, which is a 
relatively short time?
    Mr. Allen. Yes, Mr. Chairman. That is an excellent question 
because this is a very difficult, multifaceted, 
multidimensional threat, and trying to secure all those lengthy 
borders is a very large challenge. But I think we have to do it 
in a couple of ways. And my colleagues, who will speak later, 
will speak on specific operational successes and programs on 
which they are engaged.
    What I see has been lacking is a good intelligence analytic 
baseline to understand the threat thoroughly, to look at the 
border holistically. We cannot break it into simply the legal 
movement of goods and people, narcotics, human smuggling, 
trafficking, contraband, potential of WMD being smuggled across 
the border, terrorism, and illegal immigration. We have to look 
at a secure border process.
    Under the Homeland Security Act, the Secretary of Homeland 
Security is charged with developing secure borders, and I think 
we have to look at it in a way that we have not looked before. 
One of the things that I have done since we have arrived is 
establish a border security branch that is going to be quite 
substantial in order to understand the threat, the drug 
smuggling, the alien smuggling, and the financial transactions, 
including money laundering. So we are going to have to take a 
very strategic look at this problem that we have not done 
previously.
    The other issues that we have to bring to bear is all of 
the capabilities of the national Intelligence Community on to 
this problem. And there is a lot that can be done through the 
various intelligence collection capabilities. I don't have the 
power to collect intelligence, as the Chief Intelligence 
Officer, although the DHS operating components can collect 
information as part of their operational and law enforcement 
duties. But I do have the right to develop the collection 
requirements and priorities, which we are doing, and for the 
first time we have a set of priorities which we would be happy 
to talk about in a closed session.
    We also are developing new capabilities within the GEOINT. 
General Clapper, who just left NGA; there are things we have 
done that are totally unprecedented within the area of other 
intelligence collection capabilities. As I said in my opening 
comments, we are developing an intelligence, surveillance, and 
reconnaissance plan to deal with border security, and working 
very closely with General Maples over in the Department of 
Defense, and General Cartwright at the Strategic Air Command. 
All of these things we have done in the last 3 or 4 months. And 
as I said, when I came in, we did not have an intelligence 
campaign plan against the border. The Secretary and Deputy 
Secretary of Homeland Security directed me to do so. And I 
think we are in the opening stages of developing that overall 
strategic picture and landscape. My colleagues will talk to you 
in specific terms of successful operations.
    I agree with you that we should have done more earlier, but 
we are not at this vigorously. I have a weekly stand-up, and 
believe me, those are rough stand-ups. Of all of my people--
    Mr. Simmons. Mr. Allen, before my time runs out, in all of 
these activities are you preserving and protecting civil 
liberties and rights of people across our borders?
    Mr. Allen. Absolutely. This is something of which we are 
very concerned. Civil liberties and civil rights, privacies are 
all taken carefully into account. Everything we are doing were 
done under the careful scrutiny of my legal staff as well as--
and my colleagues can talk about their lawful activities. But 
everything we do is absolutely lawful. And we certainly are 
looking at special interest aliens from certain countries that 
could have not only just alien smuggling, but perhaps terrorism 
connections.
    Mr. Simmons. The Chair now recognizes the Ranking Member.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And it is good to see you, Mr. Allen. Certainly your 
reputation in the Intelligence Community is a sterling one, and 
I am glad that you are in the job that you have. However, as 
you have only been there a short period of time, as we all 
know, so would it be accurate to say that you have--obviously 
no plan is ever completely done. Even when the plan is done, it 
must be continuously updated, but would it be accurate to say 
that you have completed the comprehensive DHS border 
intelligence plan, including CBP, ICE and the Coast Guard, or 
is that in progress still?
    Mr. Allen. Congresswoman, that is still in progress. We are 
still--in my view, we are only in midstream in getting that 
overall plan together. I have seen a lot of vigor on the part 
of the individual operating components, but we have to work 
this as an integrated process. As you know, there are a number 
of initiatives. There is a Southwest Counternarcotics Border 
Strategy in which we are participating. It is a very layered 
approach.
    One of the things we are looking at is the information 
flows and trying to ensure that as we acquire information, we 
provide the information to the border--to the Customs and 
Border Protection. And we obviously have to improve those 
connectivities and the flow of information. We have a good deal 
to do, but I have some good ideas on how to get this done.
    Ms. Lofgren. I am sure that you do. Can you tell us, if you 
know, why this wasn't done before you got here?
    Mr. Allen. Well, I think the real issue is bringing the 
Department together, bringing all these various agencies and 
operating components together, many of which have somewhat 
overlapping roles, but never ensuring there is a close 
collaboration, integration.

[[Page 10]]

I meet every week with the gentlemen and ladies who will be 
speaking later from the operating components, and we have 2 
hours of just talking about how we can integrate our efforts 
toward the borders and towards training together, developing 
our analytic expertise together. And these are very tough 
sessions, but we are getting things done.
    Ms. Lofgren. As you know, 17 suspected terrorists were 
recently arrested in Toronto, and there are reported--I don't 
know if it is accurate--at least 50 terrorist groups in Canada. 
And we know that the only reported terrorist caught at the 
border was the millennium bomber arrested at the northern 
border as he was--with explosives, and a Congressional Research 
Service says that Canada is the favored destination for 
terrorist groups as a safe haven, transit point and place to 
raise funds.
    Now, we have gone over that there are 10,000 Border Patrol 
agents stationed along the 2,000-mile border with Mexico, and 
we still have problems with illegal immigration with that level 
of patrol, but only one-tenth of that amount is on the Canadian 
border. That border is 2.5 times as long as the Mexican border. 
And I know it would be incorrect to assume that those 1,000 
agents are really on the job because it is a post position. If 
you look at 24 hours a day, at any given time you have got 
between 200 and 300 people on that whole border. And we have 
had reports that people drive, walk, sail, ski, sled, crawl--
and probably a few other things--across the border with 
impunity.
    Does the comprehensive border plan that you are putting 
together address that gaping hole in border and national 
security?
    Mr. Allen. Yes. Our intelligence campaign plan would also 
include our northern border. We are very much concerned about 
our northern border. I believe that Ambassador Negroponte spoke 
indirectly to it in his hearing in front of the Senate Select 
Committee on Intelligence when he did his worldwide threat. I 
just met with Ambassador Negroponte and Stockwell Day, the 
Minister of Public Safety up in Canada. We certainly have some 
common interests. We are very impressed with what the Canadians 
have done in dealing with extremism. But this is an issue, and 
any nexus with the United States is of great concern to us. We 
obviously need to ensure that we work at this much harder.
    I just met with the head of the Border Patrol of Canada. We 
and--the head of the Border Patrol is a woman. We have agreed 
that we will work harder to look at issues where we should do 
common cause to better secure our border.
    The northern border is very different from the southern 
border, and we need new tools, techniques and methods to help 
make the border more secure.
    Ms. Lofgren. Just before my time is up, do you think 200 
Border Patrol agents on a 5,000-mile-long border is sufficient?
    Mr. Allen. I think we need substantial resources on all our 
land borders. And I am very impressed with what our U.S. Coast 
Guards have done with our maritime borders. We obviously have 
to spend a great deal of time and attention with our northern 
border as well as our southern border.
    I have spent time with our southern borders. I have just 
made a very good trip to Mexico City where we had some very 
strong dis

[[Page 11]]

cussions on how to work harder on particularly special-interest 
aliens, people who might be involved in terrorism, and we are 
getting good cooperation in the south.
    Ms. Lofgren. Thank you, Mr. Chairman. My time is up.
    Mr. Simmons. The Chair recognizes the gentleman from 
Indiana Mr. Souder.
    Mr. Souder. First I would like to make a couple of brief 
comments on the northern border. Clearly, coming from the 
Midwest, I am concerned about the northern border, but it is a 
little bit different than the southern border. One thing is we 
work with the Canadians on harmonization of immigrationwise. I 
have met teams along the border. They are taking down groups in 
Canada, the millennium bomber himself, and working with the 
RCMP.
    We have had open testimony in this committee from Mr. 
Garcia about the 10- to 12,000 that it usually takes to smuggle 
a Hispanic across the southern border, and that there are areas 
along the southern border where it is 30--to 35,000 to smuggle 
a Middle Easterner. But since we have no real knowledge of what 
is coming into Mexico, east, west or from the south, and they 
don't have functional control of their country, and we don't 
have functional control of our south border, that is partly why 
we focus so much on the south border. We do need attention in 
the north border, in fact, because so many Middle Eastern 
natives in Canada and citizens of the U.S. live in Detroit and 
Buffalo, Toronto and Montreal. That is clearly a pressure zone, 
but it is not exactly the same as the south border.
    I had a couple of questions. One is kind of simplistic, but 
it has been an increasing frustration of mine. It seems like 
often our agencies are spending more time meeting with each 
other to try to coordinate their intelligence than trying to 
figure out who the bad guys are.
    I have a very simple question: Given that we will probably 
never eliminate all stovepiping, and given the fact that so 
many of the different intelligence subgroups have somewhat 
different goals, in addition to terrorism they have a 
multiplicity of goals and focusing on different things, what I 
am wondering is if you are a border agent at any of the 
official border crossings, and you have an ID and the name 
comes up, is there a pop-up, just a signal? If the Department 
of Defense doesn't want to share certain intelligence, if the 
CIA doesn't want to share certain intelligence, if different 
parts of DHS have different intelligence in all this that pops 
up and says this is a person of interest, do we have enough 
harmonization of our intelligence agencies that even if they 
don't want to share the information, that if a name hits the 
border system, a pop-up occurs?
    Mr. Allen. I think--and I will let Customs and Border 
Protection, Captain Bortmes, speak to that later, but I, having 
visited the Border Patrol and spent time with it in two sectors 
and traveled with Congressman Reyes to El Paso, I am convinced 
that databases, as names are checked, those are done very 
quickly and very efficiently. And believe me, having come from 
the Central Intelligence Agency, there is no information if it 
involves the security of the United States that can be withheld 
by CIA or anyone else in getting that information. If it needs 
to be sanitized and declas

[[Page 12]]

sified, that can be done if it deals with personalities of 
interest to the Border Patrol.
    Mr. Souder. So you are saying that you are confident that--
because I ran into a case in my area that we have. It was a new 
category of people we are watching as opposed to our watch 
list; in other words, they haven't done anything wrong, they 
are not even a suspect, but they are doing certain behaviors. 
You are confident that each branch of the government, that if 
they have someone that they have some interest in, they may not 
have an arrest warrant out, they may just be trying to trap 
them, that all those names are in a system, in a computer 
system, that if that person crosses a border entry, that some 
warning will come up to say hold this person, here is the 
agency you contact.
    Mr. Allen. I am not confident that every database that has 
a potential person of interest would be immediately available 
to the Border Patrol. But the Border Patrol does have an 
ability to check to see if there is a potential record that 
would indicate that individual has engaged in something 
nefarious or has connections with terrorism.
    I think they do a good job. There are people turned away 
every day at our borders. I am sure Mr. Bortmes can speak more 
directly about this, but I do believe that this is improving. 
Database management is a very hard problem for the U.S. 
Government, and particularly for the U.S. Intelligence 
Community.
    Mr. Souder. Because this isn't a question of whether the 
Border Patrol is doing their job, or CBP, this is a question 
about is the information getting to them with which to do this 
job, which I know we are pushing towards, but it is really hard 
to get all these agencies to share complete information, and if 
they won't share it, if they would at least share the name so 
that people can get back to them.
    I have one other question. How do you see AMO fitting in 
Riverside? The maritime center.
    Mr. Allen. Out in California?
    Mr. Souder. Yes.
    Mr. Allen. Well, we are working closely with AMOC, that is 
a center there. We are providing them with strategic 
information. Through our initiatives and building requirements, 
we have provided them with data that they have never received 
in the last 2 months. In fact, they say they are inundated with 
some of the information that using national NTM systems that 
they never had access before. So we are starting to make 
progress. We are not where we should be, sir, but I am pushing 
it every week.
    Mr. Souder. Thank you. Because it is clear that the area 
you are working in is the underpinnings of everything else we 
do, because good intelligence and actionable intelligence is 
how we are going to prevent things. Thank you for your work.
    Mr. Simmons. I believe I just got a call for a vote, but we 
have time for an additional--a couple of sets of questions, I 
believe.
    The Chair recognizes the Ranking Member Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Allen, are you aware of CBP being accused of holding 
back information to local law enforcement agencies?

[[Page 13]]

    Mr. Allen. No, sir, I am not. And I would--I will let Mr. 
Bortmes answer that question when he appears on the second 
panel. Unless it is for some reason sensitive law enforcement 
case--investigative case information, one would think that 
information would not necessarily be held back in ways that 
would not be effective.
    Mr. Thompson. So you would agree that the sharing of 
information between agencies is a must, from an intelligence 
standpoint.
    Mr. Allen. It absolutely is. That is where I am--as you 
know, Congressman Thompson, that is where I am spending a lot 
of my time. We are putting people--Secretary Chertoff has just 
approved my implementation plan for putting my officers out 
with State fusion centers--and, in fact, I want to put them out 
in every fusion center--in order to help both the sharing of 
information from the national Intelligence Community down at 
the lowest possible level to the local level.
    Mr. Thompson. Can you give me our analysis of where CBP, 
ICE and the Coast Guard is with regard to the common sharing of 
intelligence with other State and local partners?
    Mr. Allen. Well, I would defer to them, but we have 
become--for State and local fusion centers, we have become--my 
own office has become sort of the centerpiece, the executive 
agent for the Department for the flow of information down to 
State and local level. I am sure there is information shared at 
the local level by all the operating components, and I should 
let them speak directly to that.
    Mr. Thompson. So your job will be to manage the fusion 
center?
    Mr. Allen. To ensure that there is a flow of information 
down to the State fusion centers and to the major city fusion 
centers. We are in the process of doing that and in the process 
of deploying officers to those centers. We have deployed them 
to Los Angeles, New York, Louisiana, Maryland, and we are 
sending an officer to Georgia and to Virginia in the near 
future.
    Mr. Thompson. And the goal of those centers is to have some 
common thread of intelligence available to all parties?
    Mr. Allen. Yes, sir. Those are under State or city control. 
And our job is to coordinate the flow of Federal information 
down to those centers and to ensure that they have all the 
information that they need in case there is some risk or danger 
to that particular State or that particular city.
    Mr. Thompson. Well, with respect to border intelligence, 
will we have CBP and ICE agents in those fusion centers also?
    Mr. Allen. That is a decision I think that the head of the 
operating component must make. We certainly will have officers 
from DHS there. They obviously, and JTTS, the Joint Terrorism 
Task Force, that is managed by the FBI, and they are there in 
many places, and they do a tremendous job in working and 
sharing of information.
    Mr. Thompson. If it was left up to you, would you have one 
there?
    Mr. Allen. I am not sure. I think that if we have the right 
small number of officers there--and certainly officers from ICE 
or CBP could come down to a fusion center working for the Chief 
Intelligence Officers as part of his outreach to State and 
local governments. I would like that very much. The Secretary 
has designated

[[Page 14]]

me and my office as executive agent for the Department in the 
flow of information to State and local governments.
    Mr. Thompson. Well, since we are talking about border 
intelligence--I will have some other questions, Mr. Chairman, I 
will submit for the record.
    Mr. Thompson. But, Mr. Allen, the only other question I 
have for you is, are you aware of the IG report that came out 
yesterday with respect to the Homeland Security Information 
Network?
    Mr. Allen. Yes, sir, I am aware of it. I have not read it. 
I have asked my information management officer to send it to 
me. The Homeland Security security network is run by the 
operations director at the Department.
    Mr. Thompson. But you also--there was some--well, you have 
not seen it, but there are some weaknesses.
    Mr. Allen. Yes. And one of the things that we have been 
doing--and let me just say on the classified side we are doing 
three things. One, on the Homeland Security Information Network 
I have put in an intelligence portal for sensitive but 
unclassified information to go to State and local governments. 
We have run some experiments, and we have gotten good reception 
on that.
    Two, I took over a very broken Homeland Security 
Information Network system. We have fixed that to almost every 
State and fusion center.
    And three, we are forming a Homeland Security data network, 
which will be a more robust--a more robust classified network. 
We are in the early stages of doing a pilot test on that. We 
have every intention of doing that.
    Very candidly, Mr. Thompson, we have been behind in our 
information management, and I am not happy with it, and I know 
that the Secretary isn't either.
    Mr. Thompson. I yield back, Mr. Chairman.
    Mr. Simmons. I thank the gentleman.
    For the record, we have a motion to adjourn on the floor. I 
will keep the hearing going. Ms. Harman is going to go vote and 
return. I think there is adequate time for the gentlelady from 
New York to ask her questions of Mr. Allen, and we will try to 
keep this moving along.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    And I thank you, sir, for your presentation. And I 
particularly appreciate your focus on fusion centers.
    I met with the head of the New York State Department of 
Homeland Security just last week, and one of the points he 
unfortunately shared with me is that the communication between 
the Federal Government and the local officials in New York is 
mediocre at best. So, number one, I would appreciate if you 
would comment on that and what is being done to improve upon 
it.
    And secondly, there are three fusion centers, as you know, 
in New York. There is one in Albany, there is New York City 
Police Department, and there is one in Rockland County. I know 
Westchester is in the process of putting one together, but 
there isn't one now.

[[Page 15]]

    I am very pleased that you talked about placing your people 
in these fusion centers. Perhaps you can continue to expand on 
that. How fast is this moving? Are you getting support for 
doing that? Perhaps you can focus specifically on New York. I 
happen to have an interest in it; it happens to be my district. 
What is happening there? And if the New York State Department 
of Homeland Security said there is inadequate communication, 
what are you doing; what can you do; what will you do to 
improve upon it?
    Mr. Allen. Well, I thank you for the question because New 
York City--New York State, and New York City in particular, has 
been a focus right from the moment I arrived. I will soon have 
three officers in New York City working with the Intelligence 
Division and with the Counterterrorism Division. I have a 
general liaison officer there now full time. We are going to 
send up two very experienced all-sourc intelligence officers to 
help in mentoring and teaching in New York City. Mr. David 
Cohen and Larry Sanchez are very strong on this.
    Mrs. Lowey. Didn't David originally come from New York?
    Mr. Allen. Well, his wife is from Brooklyn. He came from 
Boston. He still has a Bostonian accent. But he is a New 
Yorker, he truly is. And up in Albany we have a UNYRIC where we 
work very closely. And I have a team in UNYRIC this week. I 
intend to put a full-time officer in UNYRIC, there is no 
question about that. My principal deputy, I have an outsider, 
Jack DiMaggio, who spends his full time working to get our 
officers out to the various fusion centers.
    Albany--at this stage we do not have plans to put anyone in 
Rockland County, but we do have--we will put people in Albany. 
And I respect that Homeland Security advisor. We are going to 
improve our communications flows. When we have a threat into 
New York, we always call the Homeland Security advisor. We call 
him on the unclassified line if it is an open issue, but if it 
is classified, we have secure communications. And Homeland 
Security has made certain that the UNYRIC as well as New York 
City has classified capabilities.
    I have substantially augmented cryptographic capabilities 
for New York City so that they can communicate with the Federal 
Government. And on top of that, I am going to put in a secure 
video for Commissioner Kelly up in New York City so that he can 
dial in if he has a problem or a worry about something, we can 
just sit and secure a video conference and discuss the threat.
    Mrs. Lowey. Well, I personally, before I go and vote, want 
to thank you for that, because Chairman King and I--I am not 
sure, Chairman Simmons, whether you were with us at the time, 
it was shortly after 9/11, and we went down there and met with 
Commissioner Kelly, and it was clearly, good luck from the 
Federal Government, he was on his own. And as you know, he has 
established a counterterrorism network around the world. And I 
have been with David Cohen and others visiting their system and 
their various offices, and it really is impressive. They really 
follow up on every single lead.
    I just wonder, how many leads do you get from the Federal--
just on average, from the Federal Government coming down to 
them, or

[[Page 16]]

are they really picking them up themselves through their own 
networks?
    Mr. Allen. Well, I think we get quite a number of threats 
that relate to this country that flow in from overseas, and 
obviously from the extraordinary capabilities of the FBI. Many 
of these are not valid; we have to look at their credibility. 
And this is something that goes on every day. New York City 
also picks up suspicious activity, and they are very good at 
informing us.
    New York City is a model for doing counterterrorism, and we 
learn from working with New York City it is a two-way street. I 
have learned a great deal from working with Dave Cohen, a man 
with whom I worked with at the CIA, as well as Mr. Sanchez. So 
I think it is a mutual sharing of information. And Commissioner 
Kelly has made it clear that he wants to work very closely with 
the Department and with the operations that I direct.
    Mrs. Lowey. I gather I have to vote, but let me just say 
thank you very much. You have been on the job for how long now?
    Mr. Allen. I have just arrived 9 months ago.
    Mrs. Lowey. Well, I appreciate it. I remember on our other 
committee it took 2-1/2 years out of 9/11 for an inspector 
general to set up a computer system. So all these questions 
that we have, why hasn't it been done, that is past, and I hope 
that you can move as expeditiously as possible. And I know that 
New York City will be grateful for your efforts.
    One thing really impressed me as I visited these centers. 
They follow up on every single lead, no matter how minor, 
because you never know how minor it really is. So I thank you 
very much for your important work, and I guess I had better 
vote.
    Mr. Allen. Thank you, Congresswoman. Believe me, New York 
City is on my thoughts all the time. They ask me what worries 
me always, and I am always worried about New York City. And I 
am always sure to tell David Cohen I worry about it before I go 
to sleep.
    Mrs. Lowey. You keep worrying about it, because I have five 
of my seven grandchildren living in New York City, plus two of 
my three kids. So I worry about it morning, noon and night. And 
hopefully we will continue to put all the appropriate 
procedures in place. Continue to worry because that is the only 
way we can make sure we are covered. And I thank you very much.
    Mr. Allen. Thank you, ma'am.
    Mr. Souder. [Presiding.] I assume this is done--and I am 
not trying to get into specifics that would be classified, but 
I assume that on a daily basis there is attempts to see where 
our vulnerabilities are, where we are testing our border 
crossings, where we are testing our ports, where we are testing 
our airports, and you are checking to see where our holes are. 
Is that a correct assumption?
    Mr. Allen. That is correct. Whether it is terrorism from 
abroad, al-Qa'ida, whether it is sort of global--inspired 
homegrown terrorists that are looking for weaknesses. We see 
alien smuggling networks and narcotraffickers always trying to 
find new ways of getting across our borders, yes.
    Mr. Souder. One of the concerns that I have is 
historically--I chair the narcotics oversight committee 
directly and have spent

[[Page 17]]

most of my career working with narcotics as well as the 
Speaker's Drug Task Force, and came on here because, having 
worked narcotics issues, it was a logical thing to move to 
Homeland Security and border because they are so 
interconnected, and their functions are interconnected--is that 
often we are better at figuring out after some things happened 
in explaining patterns rather than being able to prevent. And 
it is much more difficult to try to put the little pieces of 
the alphabet in the connection until you have actually had the 
action. And yet the risk is so much higher even in Homeland 
Security on one big tragic thing than kind of the daily 
pounding we take on narcotics and other types of illegal 
activity.
    My question is, how much of the focus in the intelligence 
gathering--is it the National Targeting Center? Who is 
primarily trying to figure out when we do this, this is how 
they may change? In other words, let's say we put a fence over 
parts of the border. Where are they going to move next? Are we 
going to squeeze them into the Caribbean, are we going to move 
into the--if we control the Florida area, are they going to 
move in where we don't have as much air surveillance between, 
say, Galveston and the center of Florida? What if we do this 
will move them more to the Canadian border? What will move them 
to North Dakota as opposed to through the main border 
crossings? Is that type of discussion occurring? Is it 
interagency? How does it interrelate with the NORTHCOM and 
SOUTHCOM and the JATFs?
    Mr. Allen. And it is a very good question because--and I 
will let my colleagues--again, Mr. Bortmes, Mr. Sloan and Ms. 
O'Connell--talk particularly about the daily looking at 
changing patterns.
    My job--and I have here my Chief Threat Assessment 
Officer--is to look at how these patterns change, working with 
all sources of information from the traditional Intelligence 
Community as well as from the operational components of 
Homeland Security to try to focus very clearly on where things 
have shifted because--and I am sure Mr. Sloan can tell you 
about maritime patterns and how, as the Coast Guard increases 
pressure in one area, the roots move to another.
    I think we have to do this very, very systemically. I have 
talked to Mr. John Walters, who heads their Office of Drug 
Enforcement Policy, and he believes that we have to look at 
this very holistically, and we have to stand back and get 
strategic intelligence. If we simply follow the latest lead, 
the latest tip, and just do tactical intelligence, we won't 
understand it.
    And your question is very much on target. We have to do 
both; we have to do tactical operations, and we have to do 
strategical analysis, otherwise we will never win this--and I 
don't know if win is the right word--otherwise we will never be 
successful in this struggle to secure our borders.
    Mr. Souder. One of the challenges, when there was a lot of 
focus on the Arizona border, we took resources from California 
and Texas and moved them over. It is not clear that the groups 
who are moving any kind of illegal traffic, whether it be 
human, narcotics, terrorists or anything else, behave in zones 
like we behave. While they may have certain syndicates that 
control certain parts of those zones, they don't match up to 
our sectors. And what clearly hap

[[Page 18]]

pened is we had an increase in activity in areas where we had 
pulled out, and so the net reduction wasn't anything like 
consolidating in one zone.
    If we put the Guard on the border, if we fence certain 
sections, I presume that as we are making those decisions, much 
like--I mean, anybody knows who goes to San Ysidro, you can see 
all the watchers. You can see the watchers on their side and 
our side going back and forth, and the lane movements, and both 
sides are watching that. And I would like to think that we are 
increasingly doing that anticipation of what, if we do this, 
the next move is going to be. And a lot of that is 
intelligence-driven: Are we doing preventative intelligence as 
well as reactive intelligence? And that is kind of the biggest 
challenge that you have in the services.
    One other question on NORTHCOM. They have been talking 
about standing up more intelligence and coordination, whether 
it is down at El Paso or up in Colorado. Do you know what the 
status of that is? And do you have an opinion as far as how--
whether the Defense Department needs to get into more 
aggressive intelligence on the border?
    Mr. Allen. Well, let's just go back to proactive 
intelligence activities and ways to do prevention. I think Mr. 
Bortmes may talk about intelligence-driven activities or 
operations on how we have tried to anticipate, if there is a 
threat, to preempt people from entering and crossing our 
borders who could have very nefarious plans.
    The one thing that we are working on right now broadly 
within the Intelligence Community as well as the Department of 
Homeland Security is the issue of radicalization. We are also 
working with State and local governments because we are finding 
that the States are studying radicalization. What causes a 
person to move from, say, a fundamentalist view of the world to 
one of extreme, say, solipsism and where violence might be 
created? How can you prevent that deterrence? How can you 
engage in a policy of deterrence or a policy of preemption? So 
we are working at that.
    And my deputy for intelligence, who is not here, has formed 
a Radicalization Working Group, and we work across the 
community and across the Department.
    On the NORTHCOM issue, that is very important. I'm getting 
a NORTHCOM officer assigned directly to my office so we can 
coordinate more. I met with Admiral Keating. I have met with 
retired Captain Mike Knoll, who is a J-2 out there. It is clear 
that they do wish to expand their energies and efforts to work 
secure borders. They have had some issues getting all the 
activities in which they want to undertake, but we are working 
very closely with them, and they are expanding their energy on 
border security.
    Ms. Lofgren. Just real quickly. All of the terrorists who 
attacked the World Trade Tower, the first attack and the 
second, actually came in with visas through airports, not 
across the land borders. Does your plan that you are working on 
address that element?
    Mr. Allen. The intelligence campaign plan is more focused 
on securing the land borders in particular, both north and 
south. We have come leaps and bounds since September 11th in 
being able to control particularly the movement through the air 
and our airports of entry. I believe the kind of programs that 
are in place now and which are being improved is much greater.
    I know that Mr. Sloan could talk about security at ports as 
well as maritime and border intrusions. But what we have since 
September 11 is a much harder country to enter illegally. 
However, I am very concerned about the potential for "clean 
skins" getting breeder documents, getting genuine documents, 
say, in Western Europe and being able--as Director Mueller 
might say--to be only an e-ticket away from entering the United 
States. So we do worry about that.
    Ms. Lofgren. Thank you, Mr. Chairman. And I would yield 
back so that my colleague from California can begin her 
questions.
    Mr. Simmons. The Chair recognizes the gentlelady from 
California, the distinguished Ranking Member of the 
Intelligence Committee. Thank you.
    Ms. Harman. Thank you for holding this hearing.
    Welcome, Charlie. I just voted not to adjourn Congress. I 
actually think there are some important things to do, and one 
of them is to enact a comprehensive immigration reform 
strategy. I realize you are not here testifying on that, but I 
thought I would, until I collect myself, make a point, which is 
that we do need stronger border enforcement at all of our 
borders and not just our southern border. We surely need an 
intelligence strategy to fit with border enforcement, because 
most folks coming here are just looking for a better way of 
life, they are not potential terrorists or criminals. But we 
also need the rest of it, which is some fair and reasonable 
suggestion for how to deal with 11--or 12 million people who 
are already here. And I hope we will do both, and I think it 
would be a huge mistake if some folks in this Congress prevent 
us from doing both. So that is my rant. Now I have collected 
myself.
    And I know you have been asked that question about fusion 
centers and some of the other issues that I care about, too. I 
sort of want to approach this more philosophically, if I can, 
and that is to get your sense, and I know you can give us your 
sense because this is your background in what you do for a 
living, of how critical the intelligence piece is to border 
enforcement. If you get this right, and if the intelligence--if 
the fusion centers work, and if information sharing actually 
happens, what could we begin to see? And if you get it wrong 
and there isn't information sharing, and the fusion centers 
implode, and the intelligence products are bad, what could we 
see?
    Mr. Allen. I think a strong intelligence integrated 
capability with law enforcement along with good policies and 
good cooperation with our neighboring countries will make a 
world of difference. I think intelligence can and should be a 
major driver because, to me, to be able to understand the 
threat, to focus in on those threats that are most worrisome to 
us--and, as you said, it is not just the illegal workers. What 
really worries us are the narcotraffickers, the alien smugglers 
and, above all, special interest aliens, some of whom may be 
coming here from Asia, the Middle East, South Asia, or Africa 
as part of an extremist group.
    If we get this right--and this is something that we are 
working with Ambassador Negroponte. As you know, Ambassador 
Negroponte served in Honduras, he served in Mexico City, he 
knows some of the border issues very well, and we discussed it. 
He looks to the intelligence-driven efforts that we are 
conducting as very much part and parcel of the overall national 
intelligence effort. Ambassador Negroponte, and I saw him last 
night, is very determined to work with us on this issue.
    Ms. Harman. Well, I agree with that. We call him Director 
Negroponte, by the way, in the Intelligence Committee because 
we think he has got to lead this endeavor and not just be an 
ambassador. But that is a comment for the winds.
    At any rate, I agree. And if we get it wrong, conversely, 
the highest fences in the world, 3 million Border Patrol folks 
I doubt will prevent us from being harmed by either the 
criminal element or terrorist element because there is no such 
thing--and I am asking a rhetorical question, but I assume you 
agree with me, Charlie. But there is no such thing as 100 
percent security anyway; is that correct?
    Mr. Allen. That is absolutely correct. I talk about 
stabilizing our borders. The term ``seal our borders'' is not a 
phrase I use. I want stability on the borders so we can then be 
able to focus on those real threats. And they are real threats, 
and some that I see every day that give us great concern.
    Ms. Harman. Well, I thank you for that. And, Mr. Chairman, 
let me conclude by saying if we don't get the intelligence 
piece right, we will never get border enforcement right, 
period. And border enforcement obviously is more than the 
Mexican and the Canadian borders. It is port security; it is 
airport security; it is those folks who come in on cruise ships 
to Catalina off the coast of California where there are no 
border controls, and then take the ferry boat into San Pedro or 
Long Beach, or pick another island in another location. None of 
this will work if Charlie Allen doesn't succeed. So, no 
pressure, Charlie, but please succeed.
    Thank you, Mr. Chairman.
    Mr. Simmons. I thank the gentlelady for her questions and 
her comments. And I share with her that I could not agree with 
her more, that what we do intelligencewise on the border, how 
we focus our intelligence assets is going to determine whether 
or not we succeed; that we simply cannot put a policeman or a 
soldier in every place for 12,000 miles. It simply won't work.
    And in excusing our first panel, I would like to comment 
again where he says ongoing operational efforts to push the 
border outward and build a layered defense extending within the 
United States. We talk about the border as a line in the sand, 
but from an intelligence standpoint we are talking about 
someone who may appear on the radar in Afghanistan, transit 
Europe, show up on a ship or in Canada or in Mexico, and at 
some point in that process we try to get a line on them so when 
they hit the border, we can grab them, or when they cross the 
border, they set off a trigger mechanism and ring a bell so 
that subsequently we can get them within the United States.
    So it is not a question of intelligence just at that point; 
it is a question of intelligence in depth overseas and 
intelligence follow-up within the continental United States, 
again, within the framework of our civil liberties and our 
rights.

[[Page 21]]

    Thank you, Mr. Allen, for your testimony. And I would ask 
the second panel to quickly gather. I know our Coast Guard 
friends have some time constraints, but we want to pick their 
brains. Thank you very much.
    The second panel will be made up of what you might call the 
operational components of intelligence at the border. We have 
Mr. James Sloan, Assistant Commandant For Intelligence of the 
U.S. Coast Guard, charged primarily with port security and 
offshore security activities; Ms. Cynthia O'Connell, Acting 
Director, Office of Intelligence, Immigration and Customs 
Enforcement. And I think we all have an understanding of what 
our Immigration and Customs folks are doing intelligencewise at 
the border. And then lastly Mr. L. Thomas Bortmes, Director, 
Office of Intelligence, Customs and Border Protection.
    I welcome the three witnesses. I know they all have 
prepared statements. We would appreciate it if they could 
summarize the high points of their statements for no more than 
5 minutes, allowing the Members to ask questions.
    And why don't we start with the Coast Guard. Mr. Sloan, the 
motto is Semper Paratus. Are you prepared?

      STATEMENTS OF JAMES SLOAN, ASSISTANT COMMANDANT FOR 
  INTELLIGENCE, U.S. COAST GUARD, U.S. DEPARTMENT OF HOMELAND 
                           SECURITY.

    Mr. Sloan. Yes, I am, Mr. Chairman. And thank you. And 
thanks also to Ranking Member Lofgren.
    I am Jim Sloan. I am the Coast Guard's Assistant Commandant 
For Intelligence and Criminal Investigations. And I do have a 
prepared statement that I would ask be inserted into the 
record.
    Mr. Simmons. Without objection.
    Mr. Sloan. Thank you, sir.
    I would like to thank each of the members of the committee 
for the opportunity to discuss the Coast Guard's intelligence 
and criminal investigations program and its role in support to 
Coast Guard missions regarding border security.
    Bounded by the oceans, America always has been a maritime 
Nation. The oceans are a resource that we have to protect, a 
path for global commerce, and, unfortunately in today's world, 
a route for potential terrorists and other threats to our 
national security.
    Mr. Chairman, you commented on the 12,500-mile border that 
is the maritime border, but in addition to that, the Coast 
Guard is responsible for 95,000 miles of coastline when you 
consider the laws that the Coast Guard has to enforce within 
3.4 million square miles of Exclusive Economic Zones extending 
200 miles from the United States and its territories and 
possessions. This places us in a position to push our borders 
out and react to the threats far at sea.

[[Page 22]]

    It is through the Coast Guard's Intelligence and Criminal 
Investigation Program, that includes not only those personnel 
serving in Coast Guard headquarters, but those serving as 
liaison officers at various agencies, the intelligence 
analysts, the COASTWATCH personnel at the Intelligence 
Coordination Center, as part of and partnered with the Office 
of Naval Intelligence at the National Maritime Intelligence 
Center, the intelligence specialists at the Area Maritime 
Intelligence Fusion Centers, the field intelligence support 
teams at U.S. ports, and our criminal investigators are all 
involved in accomplishing the objectives to provide immediate 
actionable warning intelligence on terrorists and other threats 
to the Coast Guard's operational commanders, the Commandant, 
the Department of Homeland Security, and our other consumers.
    Many Coast Guard missions are cued by intelligence such as 
counterdrug initiatives, alien smuggling, migration, fisheries 
enforcement, and other law enforcement functions. It is the 
personnel at the Department's Office of Intelligence and 
Analysis that Charlie Allen represents, the Area Maritime 
Intelligence Fusion Centers, and the Intelligence Coordination 
Center that blends the information and places it into the 
appropriate channels.
    As part of the Department of Homeland Security's 
intelligence architecture, I am committed to integrating the 
Coast Guard intelligence capabilities with other components in 
the Department to support a unified DHS intelligence 
enterprise. Significant challenges remain, and many of them 
have been discussed in the last hour, and more work needs to be 
done, but the Coast Guard and the organizations represented 
here today are dedicated to ensuring the safety and security of 
the American people.
    Thanks for this opportunity, and I am prepared to answer 
any questions.
    Mr. Simmons. I thank you very much.
    [The statement of Mr. Sloan follows:]

                   Prepared Statement of James Sloan

    Good morning Mr. Chairman and distinguished members. It is my 
pleasure to be here today, alongside Ms. Cynthia O'Connell, 
Intelligence Director of ICE and Mr. Tom Bortmes, the Intelligence 
Director of CBP, appearing before you today to discuss the Coast Guard 
Intelligence Program's role in border security.
    The security of the U.S. borders is a top priority for the Coast 
Guard and the Department of Homeland Security (DHS). This hearing is a 
testament to the continued importance placed on border security and 
recognition of the Coast Guard's vital role in port and border 
security. Border security conveys the thought of land masses converging 
together. The reality is our maritime borders are the longest front in 
this battle. The Coast Guard's authority focuses not on land-to-land 
borders but land-to-water borders that include the Pacific and Atlantic 
Oceans as well as the Gulf of Mexico and the Great Lakes. These shores 
involve key border security issues that must be included in any border 
security discussions and decisions.
[GRAPHIC] [TIFF OMITTED] T4854.001

    As the Nation's primary maritime law enforcement agency, an armed 
force, and lead Department of Homeland Security (DHS) agency for 
maritime security, the Coast Guard has significant authorities and 
capabilities with regard to maritime security. Still, success in 
achieving maritime border security requires the full and complete 
cooperation of our interagency, state, local, tribal and private sector 
partners.
    The maritime domain is an avenue for those wishing to smuggle 
people and illicit drugs into our communities - and an avenue that 
could be exploited as a means to smuggle weapons of mass destruction 
and/or terrorists into our country. In 2005 alone, the Coast Guard
    pted 9,500 undocumented migrants attempting to enter the United 
States illegally by sea, a 100 percent increase over 2001; and
    Prevented more than 338,000 pounds of cocaine (an all-time maritime 
record) and more than 10,000 pounds of marijuana from reaching the 
United States.
    While the 9/11 Commission noted the continuing threat against our 
aviation system, it also stated that "opportunities to do harm are as a 
great, or greater, in maritime or surface transportation." There has 
been a great deal of focus on container security, which is appropriate; 
however, a container is only as secure as the ship and crew that 
carries it. In fact, the most often observed U.S. maritime threat 
remains smuggling. As on land, we know that there are numerous 
professional migrant smuggling rings that operate in the maritime 
realm. The proximity of U.S. population centers to the maritime domain 
and the diversity of maritime users present significant and wide 
ranging vulnerabilities. Effective intelligence support can address 
these vulnerabilities to detect and defeat threats along our maritime 
borders.
    Many of the Coast Guard's mission successes are cued by 
intelligence. In addition to supporting our focus on preventing 
terrorist attacks, timely intelligence is critical in our efforts to 
stop international maritime drug trafficking, maritime alien smuggling, 
illegal high-seas driftnet fishing encroachment of U.S. natural 
resources in the Exclusive Economic Zone, and damage to the marine 
environment. Intelligence is a needed force multiplier given our 
limited assets and expanding mission requirements, it is the value 
added to enhancing maritime domain awareness.
    Leveraging our longstanding partnerships and unique maritime 
authorities, access and capabilities the Coast Guard has significantly 
enhanced nationwide maritime security. The role of intelligence is to 
provide timely, accurate and actionable information so that decisions 
can be made and actions taken that support the operational commanders. 
Significant challenges remain and much more work needs to be done, but 
we are focused on the right priorities.
    The Coast Guard Intelligence and Criminal Investigations Program 
has established and actively participates in several partnerships to 
enhance border security and other Homeland Security initiatives, such 
as:
    The Coast Guard works in close partnership with DHS Office of 
Intelligence and Analysis (I&A) and other elements of the Department to 
provide intelligence support to homeland security. We are providing 
strong support for the standup of the intelligence functions within 
OI&A by detailing intelligence analysts and assisting in building 
relationships with other Intelligence Community partners.
    The Coast Guard Intelligence Program and the Office of Naval 
Intelligence continue to build an effective joint intelligence 
partnership to enhance maritime domain awareness. The Coast Guard's 
Intelligence Coordination Center is co-located with the Office of Naval 
Intelligence, which comprises the National Maritime Intelligence Center 
(NMIC);
    The NMIC has been designated as the core element for the Global 
Maritime Intelligence Integration (GMII) Plan. The GMII Plan is one of 
the eight support plans that make up the National Strategy for Maritime 
Security (NSMS). The Coast Guard's Intelligence Coordination Center 
(ICC) and the Office of Naval Intelligence (ONI) have been the foci of 
the GMII effort thus far. Achieving Final Operating Capability (FOC) is 
dependent upon strong representation from the other core elements, 
including: DHS - CBP and ICE, DOJ - FBI and DEA, Treasury - OFAC and 
FINCEN, NSA, and NGA. The overarching GMII requirement is to identify, 
locate, and track potential threats to U.S. maritime interests and 
subsequently transfer accurate, relevant, and collaborated information 
to those operational entities.
    Within the Coast Guard's Intelligence Coordination Center (ICC), 
the Coast Guard and CBP have exchanged personnel to enhance data 
sharing between the ICC's COASTWATCH program (which gathers and 
analyzes information based on the ship's 96-Hour Notice of Arrival 
(NOA) report on vessels and people approaching U.S. ports) and CBP's 
National Targeting Center (cargo tracking) process. COASTWATCH has 
improved processing of NOAs by more than 600 percent since FY05. This 
COASTWATCH mission has detected and provided advance warning about 
numerous arriving individuals identified in federal law enforcement and 
immigration databases as criminal or security concerns, including 
active warrants and "deny entry" orders for previous border crossing 
violations. In addition, several individuals wanted for questioning by 
federal agencies about possible extremist associations have been 
identified in advance of arrival and referred to the relevant agency 
for investigation.
    The Coast Guard provides access, where authorized and appropriate, 
to its intelligence and criminal investigations databases, as well as 
advice to others developing intelligence sharing architectures. The 
Service has also provided intelligence analysts, exchange personnel, 
and liaison officers to other agencies active in the maritime arena;
    The Coast Guard's Intelligence and Criminal Investigations Program 
provides a permanent presence on the FBI's National Joint Terrorism 
Task Force (JTTF) and select regional JTTFs;
    "Operation Drydock", which began in December 2002, is a joint Coast 
Guard and FBI criminal and counterterrorism investigation into national 
security threats and document fraud associated with U.S. merchant 
mariner credentials. Currently, the databases compiled are managed by 
the Coast Guard Investigative Services (CGIS) and are used by El Paso 
Intelligence Center (EPIC), Coast Guard ICC, and Coast Guard Sector 
Commands nationwide. The "Operation Drydock" databases are also used by 
Coast Guard Regional Examination Centers (REC) to vet applicants 
seeking merchant mariner documents and licenses; and
    "Operation Panama Express" is a multi-agency Organized Crime Drug 
Enforcement Task Force (OCDETF) investigation that began in the mid 
1990s to help stem the flow of illegal narcotics flowing from Central 
and South America via maritime means. The Coast Guard Investigative 
Service is a partner in Panama Express. The CGIS agents assigned to 
Panama Express speak fluent Spanish and have a wealth of practical 
hands-on experience in Coast Guard maritime law enforcement operations 
and CGIS narcotics investigations.
    The Coast Guard has also increased its efforts to share law 
enforcement and intelligence information collected by the Coast Guard 
with other DHS components and other federal government agencies. In 
addition, the Coast Guard's Intelligence Program activities have been 
enhanced to assist in countering potential maritime threats there
    Establishment of Field Intelligence Support Teams (FIST) in various 
key U.S. ports. FISTs gather local law enforcement information, 
establishes contacts, interviews masters and crewmembers to better 
understand maritime threats;
    Enhanced intelligence capability at the theater-level with the 
standup of the Maritime Intelligence Fusion Centers (MIFCs) Atlantic 
and Pacific. The MIFCs increase collection and analytical capabilities, 
enhance all-source intelligence and information fusion, improve the 
timeliness and quality of intelligence support to Coast Guard 
operational forces. The MIFCs also ensure the rapid reporting of 
information gathered by Coast Guard forces into the Department of 
Homeland Security and Intelligence Community at the national level; 
Conducting Port Threat Assessments as a complement to the MTSA-mandated 
Port Security Assessment, to provide analyses of threats for specific 
ports, inclusive of both terrorism and crime - foreign and domestic - 
using law enforcement and intelligence information; Fielding of Sector 
Intelligence Officers put intelligence support at the tactical level; 
and, the Coast Guard's membership in the Intelligence Community; our 
wide-range of missions, and our expertise in the maritime domain allows 
us to interface in numerous and diverse forums at various levels within 
the DoD components, law enforcement agencies, intelligence community, 
state and local stakeholders, and private industry.
    Analysis of the maritime threat to U.S. ports is challenging. 
Characterization of incidents and trend analysis is complicated by the 
convergence of large volumes of cargo, alien smuggling networks, the 
narcotics trade, terrorism, regional conflict, maritime criminal 
enterprises, and some activities that fall into multiple categories but 
fall short of being a direct security threat to U.S. ports. It is the 
Coast Guard's overarching strategy, through layered security 
architecture, to "push out our borders." Our unambiguous goal is to 
meet threats far offshore in order to prevent hostile persons, vessels, 
or cargoes from entering our ports or coastal regions. Our ability to 
push the borders out is an essential element in protecting our 
homeland.The Coast Guard faces challenges in the maritime domain 
similar to those of our colleagues in securing the land border - with a 
limited set of resources, located amid vast geographic areas and huge 
amounts of legitimate activity - stop those seeking to do us harm. The 
foundation of the Coast Guard's maritime strategy relies on three key 
priorities:

    Achieve Maritime Domain Awareness;
    Establish and Lead a Maritime Security Regime; and
    Deploy effective and integrated Operational Capability.

    These are not stand-alone goals, but rather part of an active 
system of layered maritime security. For example, the Maritime 
Transportation Security Act (MTSA) led to the establishment of domestic 
and international AIS carriage requirements for certain commercial 
vessels. But without investment in systems to collect, analyze and 
disseminate the AIS signals we lose the opportunity to assess threats 
early. Similarly, the detection, identification and interdiction of 
small vessels (that certainly do not advertise their position) used by 
smugglers throughout the Caribbean and Eastern Pacific requires 
persistent surveillance capabilities. In the end, Coast Guard assets 
must be capable of mounting a dependable response to identified threats 
lest we have information but not the capability to act.
    Coast Guard assets and systems are required to operate across a 
diverse operating area including within our ports, in the littoral 
region, and far offshore. Thanks to the strong support of the 
administration and Congress, a number of initiatives are underway to 
transform Coast Guard capabilities. I would like to highlight a few of 
these initiatives as each will have a broad and substantial influence 
on our intelligence capabilities to mitigate current and future 
maritime risks.
    Integrated Deepwater System. The centerpiece of the Coast Guard's 
future capability is the Integrated Deepwater System, recently revised 
to reflect post-9/11 mission requirements such as enhanced intelligence 
gathering and handling capabilities. The Integrated Deepwater System 
was designed to secure the nation's maritime borders.
    The vessels delivered by the Deepwater program will serve as the 
Coast Guard's "eyes and ears" and allow the nation to see, hear and 
communicate activity occurring within the maritime domain. The Coast 
Guard's sustained presence along our maritime borders is unique. More 
capable Deepwater assets, linked to each other and multiple agencies 
through Deepwater's net-centric command-and-control system will 
significantly improve information sharing, collaboration, and 
interoperability in the maritime domain.
    Vessel tracking. Securing our vast maritime borders requires 
improved awareness of the people, vessels and cargo approaching and 
moving throughout U.S. ports, coasts and inland waterways. The most 
pressing challenges we now face involve tracking the vast population of 
vessels operating in and around the approaches to the United States. In 
support of this requirement, the Coast Guard has:
    Established the Automatic Identification System (AIS) to provide 
continuous, real-time information on the identity, location, speed and 
course of vessels in ports that are equipped with AIS receivers. AIS is 
currently operational in several major U.S. ports, and the Coast 
Guard's Nationwide Automatic Identification (NAIS) project will expand 
AIS capabilities to ports nationwide; and
    Under U.S. leadership the International Maritime Organization 
recently unanimously adopted a global long Range Identification and 
Tracking scheme that will provide information about all commercial 
ships of 300 gross tons and above operating within a 1,000 nautical 
miles of our coast whether the ship is bound for a U.S. port or is on 
innocent passage. Additionally, we will have tracking information out 
to 2,000 nautical miles when ships have declared its intent to arrive 
in a U.S. port.
    Maritime C4ISR Enhancement. Existing Command, Control, 
Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C4ISR) systems and operational concepts must be 
reoriented and integrated with current and emerging sensor capabilities 
and applicable procedures. Similar to the nation's air space security 
regime, the maritime security regime must integrate existing C4ISR 
systems with new technologies and national command-and-control systems 
and processes. For example:
    The Common Operating Picture (COP) and corresponding Command 
Intelligence Picture (CIP) must continue to grow and expand to federal, 
state, and local agencies with maritime interests and responsibilities. 
The COP provides a shared display of friendly, enemy/suspect and 
neutral tracks on a map with applicable geographically referenced 
overlays and data enhancements. The COP is also a central element of 
the Deepwater solution tying Deepwater assets and operational 
commanders together with dynamic, real-time maritime domain 
information. This link is essential to ensure effective command and 
control of all available Coast Guard assets responding to a myriad of 
border security threats.
    An expansive and interoperable communications network is critical 
for maritime security operations and safety of life at sea. In the 
coastal environment, the Coast Guard's Rescue 21 system will provide 
the United States with an advanced maritime distress and response 
communications system that bridges interoperability gaps, saves lives 
and improves maritime security.There is no single solution to maritime 
border security. It requires a layered system of capabilities, 
established competencies, clear authorities, and strong partnerships. 
The cost of allowing blind spots in our awareness, security regimes or 
operational capabilities is too high.This is the mandate for the Coast 
Guard Intelligence and Criminal Investigations Directorate to support 
those priorities, which ultimately supports the overall strategic and 
national level objectives of the Nation.Thank you for the opportunity 
to testify before you today. I will be happy to answer any questions 
you may have.
    Mr. Simmons. And we will now go to the second witness 
Ms.O'Connell. Welcome.

  CYNTHIA O'CONNELL, ACTING DIRECTOR, OFFICE OF INTELLIGENCE, 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. O'Connell. Good morning. Thank you, Chairman Simmons. I 
will have just a few brief statements. I respectfully request 
that my full statement be submitted for the record.
    Mr. Simmons. Without objection.
    Ms. O'Connell. Chairman Simmons, Ranking Member Lofgren, 
members of the subcommittee, I am Cynthia O'Connell, Acting 
Director of the Office of Intelligence for Immigration and 
Customs Enforcement. I sincerely appreciate this opportunity to 
share with you how the men of women of ICE Intelligence employ 
our capabilities to help secure our Nation's borders.
    I am also honored to testify alongside my colleagues from 
Customs and Border Protection and the U.S. Coast Guard, as well 
as Mr. Charles Allen from the Department of Homeland Security. 
As the DHS Chief Intelligence Officer, as you know, Mr. Allen 
has been instrumental in coordinating with the Intelligence 
Community and providing guidance on Homeland Security-specific 
issues.
    The ICE Office of Intelligence supports ICE and DHS 
intelligence requirements and priorities. We have made 
significant progress

[[Page 23]]

and continue in expanding our responsibilities to support the 
needs of ICE, DHS, and the Intelligence Community.
    With the unique Immigration and Customs authorities and 
intelligence tools, ICE Intelligence has also enhanced its 
detection, collection, and analysis capabilities.
    In addition to ICE Intelligence headquarters in Washington, 
D.C., we have six field intelligence units located in New York, 
Long Beach, Chicago, Houston, Tucson, and Miami; two technical 
collection facilities, the Tactical Intelligence Center, and a 
Special Operations Center; and intelligence assets at the El 
Paso Intelligence Center.
    ICE Intelligence headquarters supports ICE management and 
DHS intelligence and analysis efforts and coordinates ICE 
Intelligence programs and operations nationwide. The field 
intelligence units provide intelligence expertise to field 
investigative offices and detention facilities and to DHS 
intelligence as a whole. Our technical collection facilities 
act in concert for the Intelligence Community, the military, 
and other Federal agencies to safeguard the border that extends 
beyond our borders outward. These are powerful capabilities, 
and we have moved to organize them in a coherent and effective 
support system both to advance the ICE investigative mission 
and to support and integrate ICE into the DHS intelligence 
functions.
    Our specific intent is to integrate our intelligence 
capabilities with other components in the Department to support 
a unified DHS intelligence enterprise. ICE Intelligence takes 
advantage of currently operating effective projects and 
programs, and combines them with proposed new programs and 
capabilities, and unites the whole under a common strategic 
purpose, the protection of our country against threats that 
could arise from our borders.
    Our Special Operations Center detects and locates smugglers 
moving contraband and aliens across the borders by collecting 
intelligence through real-time technical means. Its 
methodologies not only interdict the incursion, but also helps 
identify smuggling organizations for investigation and 
dismantling.
    We coordinate Customs and Border Protection air and marine 
operations in the Office of Border Patrol and Office of Border 
Patrol assets to stop illegal activity. This year they have 
supported the interdiction of about 35 tons of marijuana with 
the seizure of associated vehicles and weapons and the arrest 
of countless smuggled aliens.
    ICE is integrating its Special Operations with geospatial 
intelligence capabilities sponsored by DHS and the analytical 
functions of our Southwest Field Intelligence Unit. We are 
working with DHS Intelligence, Surveillance and Reconnaissance 
to leverage available Department of Defense and DHS science and 
technology resources for upgrades to this dedicated border 
protection unit.
    What I have just described to you is true border-focused 
intelligence support. However, our protective effort is not 
devoted to just the land borders; we are also heavily involved 
in maritime and air transportation environments.
    Operation Last Call exploits the intelligence value of 
hundreds of thousands of individuals who enter the detention 
system annually.

[[Page 24]]

This highly effective operation collects, evaluates, analyzes, 
and disseminates information derived from detainees in ICE 
custody.
    Project Aegis supports the ICE visa security program which 
places ICE personnel in foreign countries to work with State 
Department consular officials in vetting these applicants.
    The Border Enforcement Security Task Force is a DHS-
inspired initiative that responds to the increase in border 
violence. It is actively supported by analytical resources from 
our field intelligence units.
    ICE Intelligence is also working with DHS I&A on its 
intelligence campaign plan, a borderwide security effort aimed 
at more efficient consolidation of relevant field intelligence 
information.
    Operation Capistrano is a cooperative initiative with 
Department of State Consular Affairs where we train password 
examiners to recognize indicators that may point to potential 
narcotics and currency smugglers. This initiative has led to 
over 1,300 seizures and 1,300 arrests with more than 1,700 
pounds of heroin and 2,600 pounds of cocaine seized.
    Operation Roswell uses similar techniques to identify alien 
smugglers, immigration fraud violators, and child sex tourism 
suspects. In the past 2 years, Operation Roswell resulted in 26 
aliens removed, produced evidence of over 60 marriage fraud 
schemes, and in one significant case yielded analysis that led 
to eight arrests, ten removals, and the dismantling of an 
organization that smuggled 37 foreign nationals into the United 
States.
    In spite of all these successful initiatives, we are not 
content to rest on present production and current capabilities. 
Business plans and performance metrics based on objective 
customer evaluations must support all our work. From these 
markers, ICE Intelligence proposes the development and 
acquisition of advanced technologies, new techniques and new 
processes, and additional integration into multiagency and 
multinational operations. This is our future path to a safer 
and more secure border and homeland.
    I thank you for the opportunity to describe some of our 
initiatives that support border security. I would be happy to 
answer any questions at this time.
    Mr. Simmons. Thank you very much.
    [The statement of Ms. O'Connell follows:]

                Prepared Statement of Cynthia O'Connell

    Chairman Simmons, Ranking Member Lofgren, Members of the 
Subcommittee,
    I am Cynthia O'Connell, Acting Director of the Office of 
Intelligence for U.S. Immigration and Customs Enforcement (ICE). I 
sincerely appreciate this opportunity to share with you how the men and 
women of ICE Intelligence employ our capabilities to help secure our 
nation's borders.
    The ICE Office of Intelligence supports ICE and Department of 
Homeland Security (DHS) intelligence requirements and priorities. We 
have made significant progress in continuing and expanding our 
responsibilities to support the needs of ICE, DHS, and the Intelligence 
Community (IC). With unique Immigration and Customs authorities and 
intelligence tools, ICE Intelligence has also enhanced its detection, 
collection and analysis capabilities.
    In addition to ICE Intelligence Headquarters in Washington DC, we 
have six Field Intelligence Units located in New York, Long Beach, 
Chicago, Houston, Tucson, and Miami; two technical collection 
facilities - the Tactical Intelligence Center (TIC) and a Special 
Operations Center; and intelligence assets at the El Paso Intelligence 
Center (EPIC).
    ICE Intelligence Headquarters supports ICE management and DHS 
Intelligence and Analysis (I&A) efforts, and coordinates ICE 
intelligence programs and operations nationwide. The Field Intelligence 
Units provide intelligence expertise to investigative offices and 
detention facilities in the field and to the DHS Intelligence as a 
whole. Our technical collection facilities act in concert with the 
Intelligence Community, the military, and other Federal agencies to 
safeguard the southern border and to extend coverage of our borders 
outward even to the shores of South America.
    In intelligence terms, these are very powerful capabilities, and we 
have moved aggressively to organize them into a coherent and effective 
support system, both to advance the ICE investigative and operational 
missions, and to support and integrate ICE in the DHS intelligence 
functions. We have accomplished this through the ICE Intelligence 
Strategic Plan, which was constructed with the specific intent to 
integrate our intelligence capabilities with other components in the 
Department, to support a unified DHS Intelligence Enterprise.
    The ICE Intelligence plan takes advantage of currently operating, 
demonstrably effective projects, programs, and activities; combines 
them with proposed new programs and capabilities; and unites the whole 
under a common strategic purpose - the protection of our country 
against threats that could arise from our borders. It is more than just 
a plan. It reflects real, effective action on the front lines.

Special Operations Center
    The Special Operations Center detects and locates smugglers moving 
contraband and aliens across our borders by collecting intelligence 
through real-time technical means, primarily signals and imagery 
intelligence. It supports ICE investigations with methodologies that 
not only interdict the incursion, but also helps identify smuggling 
organizations for investigation and dismantling. This kind of 
intelligence has real long-term benefits. The unit's emphasis to date 
has been on the U.S. and Mexico border.
    We coordinate with Customs and Border Protection (CBP) Air and 
Marine Operations and Office of Border Patrol assets to stop illegal 
activity. The information we collect is disseminated to ICE and Border 
Patrol agents in affected areas along the border from California to 
Texas.
    ICE is currently integrating its intelligence program with the 
Special Operations Center geospatial intelligence capabilities, 
sponsored by DHS, and the analytical functions of our Southwest Field 
Intelligence Unit. We are working with DHS Intelligence, Surveillance, 
and Reconnaissance (ISR) to leverage available Department of Defense 
and DHS Science and Technology resources for upgrades to this dedicated 
border protection unit.
    What I have just described to you is true, border-focused 
intelligence support; however, our protective effort is not devoted to 
just the land borders. We are also heavily involved in maritime and air 
transportation environments. We view border security as a continuum - 
it starts in various foreign countries, proceeds internationally to our 
borders, seaports, and airports, and extends into the interior of the 
United States, where support structures exist for criminal 
organizations as well as illegal immigrants. ICE provides intelligence 
at all points along this continuum.

ICE Intelligence Projects and Programs
    The Port Intelligence Center (PIC) was created in response to 
Secretary Michael Chertoff's directive to develop a task force that 
addresses New York and New Jersey seaport vulnerabilities. The ICE 
Northeast Field Intelligence Unit (NEFIU), in coordination with the ICE 
Special Agent in Charge/New York (SAC/NY) and SAC/Newark, CBP, USCG, 
the New York City Police Department (NYCPD), and other state and local 
law enforcement groups, have established the NY/NJ Metropolitan Area 
Port Intelligence Center. The PIC will develop a seaport intelligence 
collection strategy aimed primarily at cultivating human intelligence 
in the maritime environment. It utilizes the intelligence resources of 
its members to prioritize vulnerabilities and pursue entities and 
individuals for potential source cultivation.
    The National Security Integration Center (NSIC) is an Office of 
Investigations and Office of Intelligence joint center that assesses 
information, targets suspects, and supports national security 
investigations conducted by ICE.
    Operation Ardent Guardian targets the illicit use of legitimate 
immigration channels, seeking the indicators of asylum fraud, marriage 
fraud, false documents, and other fraudulent mean of entry.
    Extraterritorial Criminal Travel Strike Force (ECT) is a new 
cooperative initiative by the ICE Office of Investigations and the 
Criminal Division of the Justice Department. Supported by ICE 
Intelligence, the targeting capabilities of ECT are designed to 
leverage extraterritorial investigative and prosecutorial expertise to 
attack foreign-based criminal networks.
    Operation Last Call exploits the intelligence value of hundreds of 
thousands of individuals who enter our detention and removal system 
annually. This highly effective operation collects, evaluates, 
analyzes, and disseminates information derived from detainees in ICE 
custody. Customers for Operation Last Call intelligence are ICE 
operational units, DHS I&A, the Intelligence Community, the Federal 
Bureau of Investigation (FBI), and other Federal agencies. This program 
focuses on relevant collection in the areas of force protection, anti-
terrorism, on-going criminal enterprises, human trafficking and 
smuggling, contraband smuggling (weapons of mass destruction, drugs, 
etc.), threats to critical infrastructure, and the movement of money 
that support illicit activities.
    Project Aegis (Domestic Visa Security) supports the ICE Visa 
Security program, which places ICE personnel in sensitive foreign 
countries to work with State Department consular officials in vetting 
visa applicants. The ICE Intelligence domestic program performs 
detailed research on the resident U.S. sponsors and contacts listed in 
visa applications and reports on the background and potentially suspect 
activities of those individuals. This program provided substantial 
intelligence on the Lodi, California, Pakistani community that has 
recently figured prominently in terrorist investigations and action.
    Border Enforcement Security Task Force (BEST), the DHS-inspired 
initiative that responds to the increase in border violence, is 
actively supported by the analytic resources of the Houston and Tucson 
Field Intelligence Units. In addition to the BEST program, ICE 
Intelligence is working with DHS I&A on its Intelligence Campaign Plan 
(ICP), a border-wide security effort aimed at more efficient 
consolidation of relevant field-generated information.
    Operation Crystal Ball, a joint operation involving ICE, the Office 
of Naval Intelligence, the U.S. Coast Guard (USCG), and CBP, tracks 
suspect vessels and crewmembers and maintains historical databases to 
respond to queries from investigators and officers working in the 
maritime environment. ICE Crystal Ball analysts use electronic 
collection techniques and perform both classified and unclassified 
research to derive movement and position information. They also 
populate Naval Intelligence databases with large volumes of current 
vessel tracking data. Crystal Ball support has repeatedly resulted in 
drug seizures from merchant vessels and crewmembers, and continually 
contributes to the strategic goal of awareness in the maritime and 
seaport environment.
    Operation Capistrano, a cooperative initiative with the State 
Department's Office of Consular Affairs, trains passport examiners to 
recognize indicators that may point to potential narcotics and currency 
smugglers. This initiative has led to 1,366 seizures and 1,300 arrests.
    Operation Roswell, an outgrowth of Operation Capistrano, uses 
similar techniques to identify alien smugglers, immigration fraud 
violators and child sex tourism suspects. In the past two years, 
Operation Roswell has led to the removal of 26 aliens, provided 
evidence of over 60 incidences of marriage fraud schemes, and in one 
significant case, yielded analysis that led to 8 arrests, 10 removals, 
and the dismantling of an organization that had successfully smuggled 
37 foreign nationals into the United States.
    Operation Watchtower, working in coordination with USCG and CBP, 
analyzes the international movements of vessels and cargoes to provide 
timely intelligence and risk assessment for investigative and threat 
detection support.
    These examples are all actual ongoing activities, presently 
producing valuable intelligence that protects our borders. Many of 
these activities also directly support the Department's Secure Border 
Initiative. We also maintain a full-time senior liaison officer posted 
permanently to DHS I&A, which serves as an open conduit between ICE 
Intelligence and I&A.
    In spite of such successful initiatives, we are not content to rest 
on present production and current capabilities. Business plans and 
performance metrics based on objective customer evaluations must 
support all our work. From these markers, the ICE Intelligence 
strategic plan proposes the development and acquisition of advanced 
technologies, new techniques, new processes, and additional integration 
into multi-agency and multi-national operations. This is our future 
path to a safer and more secure border and Homeland.
    Thank you for the opportunity to describe some of our initiatives 
that support border security. I would be happy to answer any questions 
at this time.
    Mr. Simmons. And our third witness is from U.S. Customs and 
Border Protection, Mr. Bortmes. Welcome. We have your 
testimony, so if you summarize in 5 minutes, that would be 
great.

 L. THOMAS BORTMES, DIRECTOR, OFFICE OF INTELLIGENCE, CUSTOMS 
  AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bortmes. Will do, sir.
    Thank you, Chairman Simmons, Ranking Member Lofgren, 
distinguished members of the subcommittee. I thank you for the 
opportunity to join my Department of Homeland Security 
intelligence colleagues, Assistant Secretary Allen, Director 
O'Connell, and Assistant Commandant Sloan, to discuss with you 
the role intelligence plays within the United States Customs 
and Border Protection to help secure our Nation's borders. I 
have submitted, as you stated, sir, a formal statement, and 
would request that it be accepted for the record.
    I want to begin this very brief oral statement by saying 
that I am privileged to serve as the Executive Director of 
Customs and Border Protection's Office of Intelligence, which 
is charged with three primary responsibilities. The first is to 
directly support the Commissioner and Customs and Border 
Protection's headquarters and field leadership with the 
acquisition, analysis, and timely dissemination of intelligence 
information critical to CBP's primary mission of detecting, 
identifying, and preventing terrorists and terrorist weapons 
from entering the United States.
    The second is to efficiently manage a developing integrated 
Customs and Border Protection intelligence capability that 
ensures frontline CBP officers and decisionmakers have the 
value-added intelligence required to sustain border situational 
awareness, drive operations, and support policy. This larger 
CBP intelligence enterprise consists of the intelligence 
capabilities within the Office of Intelligence, the Office of 
Border Patrol, CBP Air and Marine, the Office of International 
Affairs, and the Office of Antiterrorism, and works very 
closely with the National Targeting Center and operational 
field analysis capabilities of the Office of Field Operations.
    And, finally, as a member of the Department's Homeland 
Security Intelligence Council, it is the responsibility of the 
Office of Intelligence to represent CBP's intelligence 
requirements and equities to the DHS Chief Intelligence Officer 
and assist him in directing an integrated DHS intelligence 
enterprise.
    Customs and Border Protection intelligence exists to 
support an agency that, in addition to facilitating 
international trade critical to the United States economy, is 
responsible for border security. As you stated earlier, Mr. 
Chairman, and I won't repeat the numbers, it is responsible for 
protecting more than 5,000 miles of border with Canada, 1,900 
miles of border with Mexico, and operating 325 official ports 
of entry.
    An average day in Customs and Border Protection, from the 
statements you have already made this morning, is a demanding 
day. We process well over 1.1 million passengers and 
pedestrians; 69,000 containers; 333,000 incoming privately 
owned vehicles; $81 million, almost $82 million, in fees, 
duties, and tariffs; execute 62 arrests at ports of entry; over 
3,200 apprehensions between the ports for illegal entry; seized 
over 5,500 pounds of narcotics; and not to forget over 1,100 
prohibitive meat and plant materials, animal products at and 
between the ports of entry; refuse entry to 868 noncitizens at 
the ports of entry; and intercept 146 smuggled aliens, and over 
200 fraudulent documents, while rescuing 7 illegal immigrants 
in distress or dangerous conditions between the ports of entry. 
And I remind you, again, that is every day.
    As the figures demonstrate, CBP addresses a variety of 
threats to U.S. borders that include illegal immigration, 
illegal drugs, border violence, illegal incursions, pests and 
diseases, and a host of trade violations running from smuggling 
to international property rights.
    While all of these threats to our borders are demanding in 
their own right, everyone at Customs and Border Protection 
understands that their priority mission is to prevent 
terrorists and terrorist weaponry from entering the United 
States.
    While the Office of Intelligence and the broader CBP 
intelligence enterprise directly support operations aimed at 
addressing all border threat categories, they also remain 
focused on supporting CBP's priority mission of preventing 
terrorists and their weaponry from entering the United States. 
Our first priority is to operationalize intelligence reporting 
on terrorist threats.
    In my formal written statement I discuss how CBP 
intelligence supports border security by supporting CBP's 
layered defense strategy, a strategy that, in partnership with 
an array of countries, international organizations, private 
businesses, trade entities, as well as State and local 
governments, has developed a host of programs and initiatives 
aimed at pushing our zone of defense as far outward as 
responsible to identify people and cargo long before they have 
the opportunity to board or enter the United States.
    I look forward, sir, to answering yours and the committee's 
questions and working with my colleagues here today, and 
appreciate the opportunity to speak on these matters.
    [The statement of Mr. Bortmes follows:]

              Prepared Statement of Mr. L. Thomas Bortmes

Introduction
    Chairman Simmons, Ranking Member Lofgren, distinguished Members of 
the Subcommittee. I thank you for this opportunity to join my 
Department of Homeland Security colleagues - Assistant Secretary for 
Intelligence and Analysis, Mr. Charles Allen, Ms. Cynthia O'Connell the 
Director of ICE's Office of Intelligence and Mr. Jim Sloan, the Coast 
Guard's Assistant Commandant for Intelligence and Criminal 
Investigations - to discuss with you the role intelligence plays within 
U.S. Customs and Border Protection (CBP) to help secure our Nation's 
borders.
    I am privileged to serve as the Executive Director of the CBP 
Office of Intelligence (OINT), a critical element of the Office of the 
Commissioner, charged with three primary responsibilities. The first is 
to directly support the Commissioner and CBP headquarters and field 
leadership with the acquisition, analysis and timely dissemination of 
intelligence information critical to CBP's primary mission of 
detecting, identifying and preventing terrorists and terrorist weapons 
from entering the United States. The second is to efficiently manage an 
integrated CBP intelligence capability that ensures front-line CBP 
officers and decision makers have the value-added intelligence required 
to sustain border situational awareness, drive operations and support 
policy. And finally, as a member of the Department's Homeland Security 
Intelligence Council (HSIC), it is the responsibility of the OINT to 
represent CBP's intelligence requirements and equities to the DHS Chief 
Intelligence Officer/Assistant Secretary for Intelligence and Analysis, 
and assist him in directing an integrated DHS intelligence enterprise 
that provides one DHS face to the National Intelligence Community. I 
will address each of these responsibilities from the perspective of 
intelligence support to border security.

U.S. Customs and Border Protection Overview
    In addition to facilitating the international trade critical to the 
United States economy, CBP is responsible for protecting more than 
5,000 miles of border with Canada, 1,900 miles of border with Mexico 
and operating 325 official Ports of Entry. On an average day in 2005, 
CBP personnel: processed 1,181,605 passengers and pedestrians, 69,370 
containers, 333,226 incoming privately owned vehicles and $81,834,298 
in fees, duties and tariffs; executed 62 arrests at ports of entry and 
over 3,257 apprehensions between the ports for illegal entry; seized 
over 5,541 pounds of narcotics and 1,145 prohibited meat, plant 
materials or animal products at and between the ports of entry; refused 
entry to 868 non-citizens at the ports of entry; and intercepted 146 
smuggled aliens and 206 fraudulent documents while rescuing 7 illegal 
immigrants in distress or dangerous conditions between the ports of 
entry. As these figures demonstrate, CBP, the nation's unified border 
agency, addresses a variety of threats to U.S. borders that includes 
illegal immigration, illegal drugs, border violence, illegal 
incursions, pests/diseases and a host of trade violations ranging from 
smuggling to intellectual property rights.

Countering Terrorists
    While these threats to our borders are addressed each day, all CBP 
personnel understand that their priority mission is to prevent 
terrorists and their weaponry from entering the United States. While 
OINT directly supports operations aimed at addressing all border threat 
categories, it also remains focused on supporting CBP's priority 
mission of preventing terrorists and their weaponry from entering the 
United States. The first priority of CBP's Office of Intelligence is to 
operationalize intelligence reporting on terrorist threats. Each day, 
OINT watch standers and analysts review over 1000 intelligence 
community products, engage with CBP liaison officers and analysts 
embedded in DHS and the national intelligence community, and leverage 
long-standing partnerships with federal, state, local and international 
law enforcement and intelligence organizations to ensure early 
awareness of all potential terrorist travel or movement of materials to 
the United States. Working closely with their operational counterparts, 
OINT analysts meld this intelligence with information, trends and 
patterns identified in CBP operational reporting to properly assess and 
place in context these threats, discern vulnerabilities, evaluate 
potential consequences and ultimately calculate the risk these threats 
may pose to the borders of the United States. The results of this daily 
all-source analysis and risk assessment process is disseminated via 
over a dozen intelligence product lines and services including 
intelligence reports and alerts to CBP's operational and field elements 
on the border that provide situational awareness, address officer 
safety and/or assist in developing targeting criteria against specific 
terrorist threats to the United States.

Operations and Intelligence Briefings/Intelligence Driven Operations
    Regular, all-source, intelligence briefings are provided to the 
Commissioner and CBP operational Assistant Commissioners from the 
Offices of Field Operations, Border Patrol, Anti-Terrorism, Air and 
Marine and International Affairs. During these briefings, CBP's senior 
leadership review the most current threat developments, maintain 
continuity on existing terrorist threat streams and utilize the latest 
intelligence available to formulate appropriate operational actions 
required to counter those threats. CBP's senior leadership has a number 
of operational courses of action available to operationalize threat 
intelligence, to include directing intelligence driven operations. Once 
CBP's senior leadership concurs that there is viable intelligence 
indicating a threat to our borders, an operational response plan is 
quickly formulated to address the specific threat modus, timeframe and 
geographic locations. These threat-based operations are put together by 
CBP's affected headquarters and field elements, formally vetted through 
the DHS Chief Intelligence Officer, then promulgated to the appropriate 
CBP operational field components for implementation. Additionally, OINT 
will regularly report the results of these operations via Homeland 
Security Intelligence Reports, and the CBP Office of Field Operations 
or Office of Border Patrol will formally assess the operational results 
upon their conclusion.

Supporting Forward Operations
    To meet its priority mission, CBP has implemented a layered, 
defense in-depth strategy that thoroughly addresses people and cargo 
for linkages to terrorism prior to entering the United States. In 
partnership with an array of countries, international organizations, 
private businesses, and trade entities, CBP is involved with a host of 
programs and initiatives aimed at pushing our "zone of defense" 
outward. A key example of this is the Container Security Initiative 
(CSI), which places CBP personnel teams in key overseas ports to assist 
in identifying high-risk cargo. OINT has selected and trained 
intelligence research specialists to work as members of these CSI 
teams. Embedded with their host country, CSI intelligence personnel are 
supported daily by OINT which routinely provides them overviews of the 
latest intelligence threat reporting and vets their individual and 
company names of interest against U.S. intelligence terrorist data 
bases for derogatory information, etc.Another example of CBP pushing 
its "zone of defense" outward is the Customs and Trade Partnership 
Against Terrorism (C-TPAT) which has CBP partnering with over 9,000 
private businesses to ensure the security of the international supply 
chain to prevent terrorists from exploiting legitimate trade. 
Membership in C-TPAT requires the CBP to regularly certify partner 
company due diligence, and OINT plays a significant role in supporting 
CBP with intelligence research, entity searches, and the verification 
of information.

Supporting Operations at the Border
    In addition to OINT's regular products and support to intelligence 
driven operations, OINT provides daily support to, the operational 
offices charged with maintaining CBP's border presence and security. 
These operational offices have placed subject matter experts within 
secure OINT facilities in order to increase information sharing and 
agency cooperation. Furthermore, OINT maintains a permanent detachment 
at CBP's National Targeting Center (NTC) with secure connectivity to 
national intelligence community reporting and data bases. This 
detachment supports the NTC's mission to assess all cargo and 
passengers enroute to the U.S. for potential links to terrorism and to 
directly support CBP Officers and Agents when they encounter 
individuals or cargo linked to terrorism.Q02
Managing the Integrated CBP Intelligence Enterprise
It is the responsibility of the Office of Intelligence to functionally 
manage the larger CBP intelligence enterprise. A number of CBP 
components have formally designated intelligence organizations, while 
others, such as the Office of Field Operations, have robust operational 
information analysis capabilities that work closely with these 
intelligence organizations. The Office of the Border Patrol has a 
significant intelligence organization that includes a national 
headquarters division, a Border Field Intelligence Center in El Paso, 
Texas and intelligence units at each of the 20 Border Patrol Sectors, 
all responsible for directly supporting front line Border Patrol 
Agents. CBP Air and Marine has a formal intelligence capability with 
designated intelligence personnel at their national headquarters, Air 
and Marine Operations Center in Riverside, California and with their 
Directors of Air Operations and Branches around the United States. 
These intelligence organizations are staffed with a combination of 
intelligence research specialists as well as Border Patrol Agents and 
CBP Air and Marine officers filling intelligence positions.
    As you can imagine, each of these organizations generate standing 
and ad hoc information needs, intelligence requirements, requests for 
information, collection requirements, as well as a host of personnel, 
training, connectivity, equipment and policy needs. OINT aggregates, 
validates and prioritizes these requirements and brokers them through 
the DHS Office of Intelligence and Analysis to the national 
intelligence community for satisfaction.

Leveraging the DHS Intelligence Enterprise
    CBP leverages the DHS Intelligence Enterprise largely by OINT's 
membership in the larger DHS intelligence enterprise. Working with the 
Chief Intelligence Officer, Assistant Secretary Charles Allen, the 
Department of Homeland Security is putting into place a rapidly 
expanding capability to support its agencies' intelligence components. 
As CBP's Key Intelligence Official, I am a member of Assistant 
Secretary Allen's Homeland Security Intelligence Council (HSIC) - the 
primary DHS intelligence decision-making body. Personnel from my office 
represent CBP's intelligence requirements on over a dozen HSIC-
established panels, boards and working groups that address issues 
ranging from analytical production coordination to collection, 
training, and information systems. It is through this maturing DHS 
intelligence enterprise management architecture that OINT is addressing 
critical intelligence concerns such as supporting Operation Jumpstart's 
deployment of National Guard Bureau intelligence personnel to the 
Southwest Border and supporting implementation of the Southwest Border 
Counter-Narcotics Strategy. Additionally, by leveraging the developing 
DHS report writers and intelligence training programs, CBP is gaining 
personnel and training necessary to ensure that it can translate its 
significant operational information flow into a steady supply of 
timely, intelligence reports. These reports are earning acclaim for 
their relevancy from national, state and local intelligence and law 
enforcement customers, and make CBP a leading producer of intelligence 
reporting among DHS components. OINT will continue to play a leading 
role in developing this DHS intelligence enterprise and leverage it to 
facilitate its own developing intelligence integration plans and meet 
its intelligence needs.

Closing
    I would like to thank you again for the opportunity to testify 
today with my Department of Homeland Security intelligence colleagues. 
I will be happy to answer any questions you may have.
    Mr. Simmons. I thank all three witnesses for their 
testimony. We have learned there is another procedural motion 
and vote on the floor. We will do our best to keep this 
dialogue moving forward. My colleague has gone to vote. I will 
keep the mike open, and we will do our questions.
    Mr. Sloan, in your testimony on page 4 you make reference 
to information collected by the Coast Guard.
    Ms. O'Connell, in your testimony you also make reference to 
the collection capabilities of your organization.
    And, Mr. Bortmes, you just referred to what I called 
surveillance and depth.
    The Coast Guard is now a full members of the U.S. 
Intelligence Community. The other entities I don't believe are. 
But the Coast Guard does not have a history and tradition of 
collection in an intelligence sense. But since 9/11 and in the 
new environment, the issue of collection of these assets to me 
is critically important. I don't want to know that you are 
acquiring information; in other words, that somebody hands you 
something and you take it. I do want to know that you are 
engaged in collection, because that seems to me to be a very 
worthwhile addition to our capabilities in a post-9/11 
environment.
    Could each of you talk a little bit about how you operate 
in the field and what opportunities you have to collect 
information that others don't have? In other words, what is 
your value added from that standpoint to the overall 
intelligence efforts of our country?
    Mr. Sloan. Sir, I will begin. First of all, as you probably 
know, in addition to being a member of the Intelligence 
Community, the Coast Guard is also one of the largest law 
enforcement agencies in the United States Government, 
particularly in DHS, and our law enforcement activity 
principally revolving around the maritime domain also includes 
information at ports, and we have over 360 ports for which we 
are responsible in addition to those miles of coastline.
    In each of the ports& and I will focus first, if I may, on 
the law enforcement intelligence collection activity. In most 
of the strategi

[[Page 27]]

cally and economically important ports of the United States, we 
have what are known as field intelligence support teams. These 
are law enforcement information collectors who work with not 
only the Federal counterparts, but the State and local 
counterparts in each of these ports. New York, for instance, 
they work with the New York City police and the police 
authorities.
    Mr. Simmons. If I could interrupt for just 1 minute. But 
when you collect for law enforcement, is that shared with your 
intelligence folks?
    Mr. Sloan. Yes, sir. That is the point I was going to get 
at. All of this information that is collected, to include, I 
might add, the interview of the masters of ships who come from 
overseas who can give us essentially the lay of the land in the 
port that they just departed from, this information is then put 
into field intelligence reports, which not only go to-in a law 
enforcement capacity not only go to Coast Guard Intelligence 
Fusion Centers, but also to the Homeland Security Department.
    When they arrive at our fusion centers--and as you might 
recall, I indicated we have one on each coast as well as a 
production center out in Suitland with the Office of Naval 
Intelligence--the information, where appropriate and 
authorized, bumps up against validated requirements that the 
Intelligence Community has to answer. And that is where the 
nexus occurs, and then, of course, published into the larger 
community if it would answer an intelligence--validated 
intelligence requirement.
    Mr. Simmons. I appreciate that. I know my time is going to 
run out.
    Ms. O'Connell, you collect, you provide new information to 
the community; is that correct?
    Ms. O'Connell. We do. We have got the six field 
intelligence units and the tactical intelligence centers out in 
the field where we collect information and then analyze it and 
put it back out into the operational components. For instance, 
in Operation Watchtower we work jointly with Coast Guard, 
Customs and Border Protection in order to get information and 
identify individuals that may be a threat coming in. Also on 
Operations Capistrano and Roswell, we are looking at those 
individuals who are coming in to the airports, getting, 
collecting information, and analyzing that, and then 
identifying individuals that pose a vulnerability.
    The field intelligence units work with State and local& 
Federal, State, and local and tribal authorities collecting 
intelligence, put it in Homeland Security intelligence reports, 
which we then bring into--some of them are brought into 
headquarters. Some of them are developed into intelligence 
information reports that go to the Intelligence Community. 
Other information is pumped out through the law enforcement 
components.
    Mr. Simmons. Mr. Bortmes.
    Mr. Bortmes. Again, all the information that we are able to 
put in the Intelligence Community channels is derived from our 
law enforcement authorities and done in the normal process of 
our duties in carrying out those authorities. For instance, at 
our ports of entry each day, as individuals are encountered, 
and, in fact, we realize that they might have, for instance, a 
record, a tied record or something along those lines, they are 
taken to a secondary examination.

[[Page 28]]

We are able to sit down with our colleagues from ICE, from the 
FBI or the JTTFs, go into a more in-depth interview to 
determine their admissibility. That information and what might 
be obtained from those interviews will then be forwarded out to 
our National Targeting Center and to the Office of 
Intelligence. We ensure that gets captured in Homeland Security 
information reports, intelligence reports, and sent down to the 
community through the Department. So that occurs. And it gets 
posted, regularly sent to the National Counterterrorism Center, 
et cetera.
    The value added there, again, is that granularity, the 
ability to look at an individual up close. If they are denied 
admissibility into the United States and returned back, we have 
them for that time frame. So that is a unique piece of value 
added.
    Mr. Simmons. Thank you very much.
    The Chair recognizes the Ranking Member.
    Ms. Lofgren. I will be quick so that my colleague will also 
have a chance to ask her questions.
    Last year there was an effort made to add an additional 550 
Border Patrol agents and additional 200 immigration 
investigators, and again, in December, an effort to authorize 
3,000 additional Border Patrol agents, for a total of 12,000 by 
2010, along with a new training facility to expand capacity.
    As the Executive Director of Intelligence Office at CBP, 
would you find these resources helpful to you when you are 
doing your job?
    Mr. Bortmes. Border Patrol agents all represent to me a 
collector, a conduit of information.
    Ms. Lofgren. Thank you very much.
    We have, we know, on the northern border, our 5,000-mile-
plus northern border, at any given time we have between 200 and 
300 Border Patrol agents. Do you believe this is an adequate 
force at the northern border?
    Mr. Bortmes. I believe that the number of Border Patrol 
agents on the border is closer to 1,000. But--
    Ms. Lofgren. But they are post positions. So we have only 
got at any given time 200 or 300 physically there. So do you 
think that is adequate?
    Mr. Bortmes. I don't believe anyone thinks it is adequate 
right now.
    Ms. Lofgren. Thank you very much.
    The 9/11 Act mandated an additional 800 immigration 
enforcement agents over the next 5 years, but we have only 
actually funded 350. The 9/11 Act also mandated an additional 
800 detention beds, but we have only funded, Congress has only 
funded, an additional 1,800. Do you think that this is adequate 
to deal with the flow that you have seen?
    Mr. Bortmes. The question is again directed at me?
    Ms. Lofgren. Yes.
    Mr. Bortmes. These are questions again, ma'am, that I 
believe are best answered by our operational folks, and I would 
like to take it for the record and have them respond to you and 
the previous question about adequate numbers on the northern 
border.
    Ms. Lofgren. That would be fine.
    Ms. Lofgren. And I think I will stop my questioning at this 
point and yield back so that my colleague Mrs. Lowey may ask 
her questions, and we can all get our votes in.
    Mr. Simmons. The Chair recognizes the distinguished 
gentlelady from New York.
    Mrs. Lowey. Thank you. And I will ask it quickly because 
the bells are still going off.
    I would like to direct it to Mr. Bortmes. You have heard us 
talk frequently about the fact that only about 2 percent of our 
cargo is being inspected while Hong Kong inspects 100 percent. 
I am sure you are going to say you are not satisfied with 2 
percent, but can you tell me what is actually being done to 
remedy that? And why can't we move more quickly?
    Mr. Bortmes. Ma'am, I believe you are really addressing the 
issue of physically inspecting all of the cargo. As you know, a 
great deal of the cargo from our perspective, CBP's 
perspective, is inspected. The records are looked at long 
before it is loaded aboard--the manifests.
    Ms. Lowey. Do you think it is adequate?
    Mr. Bortmes. The efforts that I have seen so far& and, 
again, it is our operational elements as opposed to our intel 
pieces. From what I have seen, the automated targeting system 
that is in place is working extremely well at identifying those 
suspect cargos that I have to worry about as the Executive 
Director for Intelligence.
    Mrs. Lowey. If you had your way, would you move in more 
physical inspection, as you call it, or are you including a 
more advanced technology in that description as well?
    Mr. Bortmes. Again, this is a question that if--I think if 
we bring our operational folks back to talk with you about in 
more detail, they can address it far better. But from all the 
discussions I have been part of, it is a combination of the 
reviewing them, the manifest information, better material, 
information arriving quicker, the nonintrusive inspection 
capabilities that are being developed. And there are plans for 
far more robust abilities to do that, and then actually 
devanning or having to inspect cargo, physically inspect the 
cargo. If you are doing all those things up front adequately 
and robustly, then the necessity for that latter part would not 
be there.
    Mrs. Lowey. But as I understand it, you just said you do 
have plans for more robustly inspecting the cargo.
    So, Mr. Chairman, I would like to certainly request from 
the gentleman more detailed information, if you can follow up 
with us on that, because it is very disturbing to the average 
American when we continually read that Hong Kong is doing it, 
and we are not doing it, and we are all living at the edge 
these days. So I would appreciate that information.
    Mrs. Lowey. And I thank the panel again. I am sorry we have 
to run, but I thank you for your important work.
    Thank you, Mr. Chairman.
    Mr. Souder. [Presiding.] Thank you.
    I have--let me first--you heard me ask the first panel that 
as I visited the many border crossings north and south, and 
fast pass lanes or whatever it is called in different places, 
when they put their scan card in, if there is a question, a 
little pop-up occurs, and the person then has run a check. And 
what my question is is in the different intelligence agencies, 
are you confident that, first, within DHS, all the information 
is getting there with an individual name? And then, secondly, 
is the entire system getting into that?
    Now, the danger of having every single piece of 
intelligence available to everybody, if there is one leak, you 
compromise the entire system. But the question is why can't at 
least a pop-up occur if anywhere in any of our intelligence 
systems there is a question about this name, even if it is just 
wanting to know where they are moving? Are you confident that 
that information is getting into our systems at this point? 
Could each of you briefly comment on that? Because you each 
deal with slightly different types of things. Maybe start with 
CBP, and whether the Coast Guard is getting it if they have a 
boat, and then ICE if you are doing an investigation.
    Mr. Bortmes. Sir, I am very confident that the information 
that is within the Intelligence Community on particular names, 
identifying data, the plus one data, et cetera, on those that 
we know are linked particularly to terror and then to criminal 
activity as well, that it is there. It is popping up. We have 
done, I think, efforts and strides have been made to make sure 
that it actually pops up in front of the CBP officer or the 
Border Patrol agent when they do run that information check. So 
I am confident that every effort--that great strides have been 
made.
    Clearly there leaves this hole of what you do as you are 
developing information, names that are being investigated, 
operations that are under way by the Intelligence Community. 
There are other names there that are not quite yet definitive 
or authoritative. We always worry about that. We take great 
strides within CBP that as we are associating or linking 
individuals with terrorist backgrounds to others to make sure 
that that information gets in the appropriate law enforcement 
and terrorist databases so that it is there, with the caveat 
that, hey, we are now looking at this individual linked to 
another in this particular way.
    So great strides, I believe, have been made, and I am 
comfortable that the information the community has is getting 
there. You clearly always want it faster; you always want it 
better, clearer. And I know there are a number of initiatives 
throughout the community to make that happen.
    Mr. Souder. Because you have seconds. Your agent at the 
line at San Ysidro is going to be backed up hours at almost any 
time of the day, so there is huge pressure in seconds. That is 
why it has to--even a 6-hour delay, if it is not instantaneous, 
we could miss somebody going through the border.
    Before I follow up, let me clarify here, because you had 
some other--you had a question I want to follow up briefly. Is 
it CBP or ICE at our embassies that would have a DHS person 
doing a check, a background check? Is it ICE?
    Ms. O'Connell. ICE has. We have attaches and assets 
overseas.
    Mr. Souder. I just want to make sure. I couldn't remember 
which one it was. In Pakistan, when I was there recently, that 
is,

[[Page 31]]

at the front desk--this isn't just about whether we have agents 
at the border, this is an interrelated system inside the United 
States and externally. And the ICE agent had identified 
somebody on one of the lists, but the list of this person's 
name had like 12 variations, because it isn't just like Mark 
Edward Souder. Often they will have six names, will have an A 
and E turned around, will have two or three of the names here. 
Are you confident that at our borders, at the CBP or at the 
Coast Guard, or as we are doing the investigations, that all 
the different variations of the name are getting into the 
system as well?
    Ms. O'Connell. If we have an ongoing investigation, and 
with the focus on antiterrorism national security issues, I am 
confident that the names are in the system. It may be the main 
name and then AKAs, also known as, attached to that. Many 
instances when individuals coming into the port of entry& Mr. 
Bortmes can speak on this also--an inspector will look at that 
name, and it will possibly highlight it, and in instances would 
identify that person who would go into secondary, and then you 
would work out different names and other uses.
    Mr. Souder. Let us say it is not an ongoing investigation, 
but a person on a watch list. We have a potential latent cell. 
Part of the way they move from just kind of casual watch to an 
aggressive watch to whether it is an ongoing, or whatever 
information you put together, so, for example, if we think that 
they are located in someplace in Indiana and haven't moved, but 
then we see this person who we really were--just casually had 
on the list because of his relationship to, say, several 
individuals, all of a sudden we see them move at a border place 
in Texas, then we see them move up by Buffalo, then we see him 
at an embassy, it suggests that there may be a pattern. But 
without kind of core information, you can't even get to the 
point.
    And so I understand if there is an active investigation, I 
have seen them pull into secondary on that. I am just wondering 
how far we are moving on this, and are we getting enough 
information in the system to be proactive other than an ongoing 
investigation?
    Ms. O'Connell. If they are identified as a lookout, yes, I 
am confident that they are in the system.
    Now, when you mentioned about movement between States, keep 
in mind that the identification of an individual in the system 
would be when they are coming in through the border. So there 
is obviously no checks going from State to State. But I am 
confident that that individual, if they rise to the level of 
putting them in as a lookout, that they would be in there, yes.
    Mr. Souder. That is assuming that they are a citizen of the 
United States. We would have no way of seeing whether a person 
who has either overstayed their visa or is on a visa is moving 
inside the United States?
    Ms. O'Connell. It is not just individuals that are U.S. 
citizens that would be put in the record that inspectors would 
identify coming through the border. It is also other 
individuals, lawfully admitted permanent residents, visitors, 
students.
    Mr. Souder. In the Coast Guard is there adequate technology 
now on--in most of our vessels to be able to read it if they 
pick somebody up or detain somebody?

[[Page 32]]

    Mr. Sloan. Well, sir, if I could just back up 1 second. The 
Coast Guard obviously doesn't have a border check, if you will, 
but we do have a responsibility to vet the names of all crew 
members of certain vessels over a certain tonnage that must be 
supplied to us 96 hours prior to the arrival in the United 
States; otherwise, the ship can't enter. And we vet those names 
not only against the law enforcement database, but intelligence 
database that you can imagine we have available to us, to 
include the Terrorist Screening Center.
    The names, if they provide a hit, clearly the ship will be 
boarded before it arrives in the United States and the 
individuals be dealt with appropriately to the degree that it 
is a law enforcement matter or somebody who shouldn't be coming 
into the country. But also, we provide some degree of check and 
balance. We want to make certain that the names that are being 
supplied to us and the passport information and the last port 
of call information and the origin of the particular crew, we 
will actually inspect vessels to verify before the vessel 
arrives to make certain that the information that was provided 
is, in fact, accurate.
    Mr. Souder. Two of the biggest potential areas for 
terrorists to hide are in Detroit and also crossing in upstate 
New York. I am from Fort Wayne, Indiana. I have been to 
Michigan many times, been at the border crossing many times 
there as well as other reasons, certainly the St. Clair River, 
Lake St. Clair. The islands there are such&at you can swim in 5 
minutes between them, and the Coast Guard does, in fact, have 
primary responsibility at that point if a boat is coming into 
our waterway. The same thing in the St. Lawrence Seaway, that--
and what I am wondering is, if the--do you, if--do you have the 
capability if you find that, or do you then if you have a 
suspect take them into another agency, have to run them to 
shore? Are we moving towards having some sort of onboard 
vessels? I know for narcotics we do in the Caribbean, but I am 
trying to think as we look at some of the Great Lakes areas and 
the St. Lawrence River, too, as well as the area coming into 
Seattle where the Coast Guard has a huge waterway with lots of 
San Juan Islands and everything.
    Mr. Sloan. Yes, sir. The San Juan Islands are a perfect 
example as are the Great Lakes. But I would point out that 
although the appearance of Coast Guard efforts in the Great 
Lakes and the San Juan Islands would not look like what is 
going on in the Florida straits and the eastern Pacific and the 
Caribbean, the same amount of attention is being paid to it.
    And I recall from some of the discussion that occurred in 
the prior panel, the relationship with Canada is particularly 
important. We do have representatives of the Coast Guard who 
operate out of Ottawa, we have law enforcement agreements with 
the Canadian authorities, and we actually have a Canadian 
representative in our National Maritime Intelligence Center. So 
the link and the exchange of information with the Canadians is 
as important to cue our activities relative to those issues as 
anything else.
    Mr. Souder. I have one additional question, if I may, Mr. 
Chairman, that one of the things as we have looked at the 
border challenge is that--is the networks that work in between 
the borders. Particularly we have looked at OTMs as a higher 
risk, theoretically at least, in terrorism, other than 
Mexicans, but it could be any

[[Page 33]]

number of smuggling organizations. And the question is are we 
proactive?
    We have tried to increase legislation on coyotes, for 
example. In San Diego, Congressman Issa said that the penalty 
was 6 months, and it took 9 months to get to trial, so nobody 
was investigating that. Yet, in fact, for major smuggling 
organizations it is much going to be like Panama Express. In 
other words, when somebody--we don't believe at this point that 
the Veterans Administration files were stolen for that purpose; 
it appears to be some college kids, and we are watching that 
very closely.
    But much of identity theft in the United States is related 
to trying to get the Social Security numbers and IDs; that when 
somebody does a package to come across the border, whether it 
be an other than Mexican or a Mexican coming across, and they 
purchase this, often somebody is providing a map, providing a 
van to pick them up, providing a false green card, that with 
the Social Security number, and obviously work sites. As they 
come into Indiana, in my district, which is the number one 
manufacturing--and the bottom line is we have a number of 
people there or we wouldn't be making it in manufacturing.
    I am not taking immediate sides on that question. I am 
asking, do we have a systematic way? Because we clearly have an 
``interterior'' smuggling organization that has places they 
rent the vans, buy the vans, markets. We had three green card 
manufacturers taken down in 30 days in my district. Is this 
being investigated

[[Page 43]]

in holistic? Because this is a gaping hole in our system over 
the last couple of years.
    Ms. O'Connell. I can speak a little bit about that on the 
operational side of ICE. The investigations program has just 
identified identity and benefit fraud units that will actively 
work within the interior of the United States. I don't want to 
state a number. I have got one in my head, but I don't know it 
100 percent. So anyway, identity and benefit fraud units.
    Then, on the intelligence front, I have got a unit at 
headquarters that specifically specializes in human smuggling, 
in trafficking, immigration fraud types of things that have 
identified a number of areas. As a matter of fact, we had a 
case related to the vans that are moving people from the 
southern border up into the northwest or the northeast coast.
    Also, the field intelligence units that are out there on 
the ground work daily with the SAC offices, the special agent 
in charge offices, and get information in and work on and 
analyze different organizations and try to pull those details 
together, add the classified information, and try to identify 
target packages for those smuggling organizations.
    Mr. Sloan. Sir, may I comment on that? Clearly asymmetrical 
immigration is a concern to the Coast Guard. This is where SIAs 
or people who might have a terrorist link or associations would 
come in by absconding or deserting or being a stowaway on a 
vessel.
    But your point relative to identification, I think, is an 
important one for the Coast Guard. We issue merchant mariner 
licenses for hundreds of thousands of individuals, and I think 
it is important for me to testify to the fact that over the 
last 2 years, actually over

[[Page 34]]

2 years, the Coast Guard Investigative Service along with the 
Federal Bureau of Investigation and the cooperation that we get 
from our partners in Homeland Security, Defense Department, and 
the Intelligence Community, has been vetting close to a quarter 
of a million merchant mariner documents to make certain that 
they are in the hands of the correct people.
    In fact, I couldn't even tell you in an open session that 
we have associated nine individuals--it doesn't seem like a lot 
out of a quarter million, but it is significant--who actually 
have associations with terrorism over the course of that period 
of time. It is an effort that continues, ongoing, and actually 
our regional centers that issue mariner documents are now 
trained to go through that program before mariner documents are 
actually allowed to be issued.
    Mr. Simmons. [Presiding.] I want to thank this panel for 
their testimony. It has been extremely interesting and thought-
provoking. I realize that some of our panelists have stayed 
beyond their anticipated time of testimony, and particularly 
you, Mr. Sloan. So we thank you very much. It has been very 
informative.
    And at this point I will excuse the second panel and invite 
our third panel to come forward.
    The third panel is made up of two individuals, Mr. Michael 
W. Cutler from the Center for Immigration Studies, and Mr. 
Michael O'Hanlon of the Brookings Institute. I welcome both of 
you gentlemen to testify. I think you have already determined 
that we have your written statements in our notebooks, we have 
reviewed those

[[Page 44]]

written statements prior to today's hearing, so feel free to 
cherry-pick the most cogent points to present to us so that we 
can get into the questions and answers, which is often very 
informative for the subcommittee. And, again, I thank you for 
being here.
    And I would ask the staff to secure the door so that we can 
hear the testimony.
    Thank you, gentlemen. C comes before O. Why don't we 
proceed on that basis. Mr. Cutler.

STATEMENT OF MICHAEL W. CUTLER, FELLOW, CENTER FOR IMMIGRATION 
                            STUDIES

    Mr. Cutler. Thank you, sir. Chairman Simmons, Ranking 
Member Lofgren, Members of Congress, ladies and gentlemen, I 
welcome this invitation to appear before you today at a hearing 
that I believe is of critical importance to the safety of our 
citizens and indeed to the very survival of our Nation.
    The gathering of effective intelligence is essential for 
effective law enforcement and for issues relating to national 
security. Nothing can be of greater significance than the issue 
of developing effective intelligence; that is to say, the 
culling of accurate information and understanding its place in 
the overall picture.
    Intelligence should be thought of as being comparable to 
the way that a digital photograph is made. A digital photograph 
is comprised of a huge number of elements or pixels which are 
placed in the proper location to paint the clear picture. As 
the number of pixels increases, the clarity of the photo 
increases proportionately. So, too, the clarity of the picture 
painted by effective intelligence is proportionate to the 
quantity and quality of the intelligence nuggets or bits of 
information that can be gathered and placed into

[[Page 35]]

their proper position in the mosaic that makes up the overall 
pictures. And the ability to understand the significance of 
each kernel of information also contributes to the clarity of 
the picture that the intelligence will create.
    But effective intelligence also requires that it be 
disseminated quickly to the ultimate users of the intelligence. 
It has a short shelf life, and, therefore, where critical 
intelligence is concerned, time is of essence. Pixels do not 
lose their value over time, but intelligence does.
    Additionally, it is important to understand that human 
nature often creates additional hurdles. Approximately 400 
years ago, Sir Francis Bacon said, knowledge is power. That 
statement is as true today as it was when he first said it. 
Various Federal agencies realize that intelligence that they 
possess provides them with a certain amount of power, and 
therefore their members have been reluctant to share their 
knowledge with other agencies. However, to the point that 
intelligence is to protect our Nation, intelligence is critical 
today that will become worthless in a very short period of time 
if it is not freely and expeditiously shared with those who 
possess the need to know.
    Rather than to continue to read my prepared statement, what 
I do want to do is point to something that I did talk about in 
my prepared statement that I would like to paraphrase.
    You know, I have heard today members of the subcommittee 
talk about the idea of allowing people in to work because we 
are con

[[Page 45]]

cerned about terrorists and we are concerned about the border. 
But the point of fact, the border alone won't solve our 
problems. I have often spoken about the need to think of 
immigration law enforcement as a tripod, with the inspectors 
who enforce the immigration laws at ports of entry, the Border 
Patrol between ports of entry, but you need to have enough 
special agents to enforce the immigration laws from within the 
interior of the United States so that we have a seamless 
coordinated effort.
    I share Ms. Lofgren's concern about the numbers of people 
that have been proposed to be hired. In fact, in May of last 
year I testified at the Immigration Subcommittee about the fact 
that while Congress had authorized the hiring of 800 new 
special agents, the administration only hired 143, or wanted to 
hire 143. The number was eventually increased.
    But this has been going on for the longest time. There was 
no response to the first attack on the World Trade Center from 
an immigration perspective, and today we are in a situation 
where we are not even giving foreign language training to the 
special agents who are supposed to be investigating illegal 
aliens operating within our country. And, quite frankly, if you 
can't communicate with people, then you are unable to 
investigate those people. And the day-to-day routine 
enforcement of the immigration laws is critical to our security 
because it is during the routine enforcement of the laws that 
you will encounter potential terrorists and develop 
information.
    Twenty years ago--and this is also my prepared testimony--I 
was doing a rather mundane and routine job. I was assigned to 
the squad that was responsible for investigating locations that 
were knowingly hiring illegal aliens, and we arrested a bunch 
of people

[[Page 36]]

working illegal in the United States in a diner at Staten 
Island. One of the individuals whom we arrested turned out to 
be a citizen of Egypt; and we went back to his apartment in 
order to get his passport, which was the standard procedure. 
What we found were bags filled to the brim with food coupons 
and dog food coupons and detergent coupons. And we could not 
understand why he had this, and he had no adequate explanation.
    Mr. Cutler. We had no place to go with that information and 
no place to make inquiries. We ultimately deported that guy. 
And months later I was shocked to listen to a television news 
report about how the PLO had sent some of their folks into our 
country to commit coupon fraud to fund terrorism in the Middle 
East.
    It is important that if we are going to secure our country 
and protect our people, that we have enough agents and that we 
understand who we are really dealing with. And quite frankly, I 
am very much concerned when I hear stories about guest worker 
programs that would provide official documentation to illegal 
aliens whose true identities we don't know. There is no way 
that we can develop a system that will deal with millions of 
people who have no way of proving who they are, where we would 
wind up giving people official identity documents without 
knowing whether or not these are bad guys, because I would like 
to remind you that the job of a terrorist, just like a spy, is 
to hide in plain sight, and if we give identity documents to 
people without knowing their true identities, we make it that 
much easier for them to hide in plain sight.

[[Page 46]]

    And finally, I want to make one point, if I may. I have 
heard some of the folks today talk about interior enforcement, 
and they are right, but they have limited it to people who have 
been identified on the border who fail to show up, the so-
called OTMs who failed to appear, and employer sanctions.
    A big issue is immigration benefit fraud. Janice Kephart 
was the counsel to the 9/11 Commission, and I provided 
testimony to her, and she did a little bit of a study and found 
that there were over 90 terrorists that were identified in our 
country operating during the decade leading up to 9/11. Of 
those 90-odd aliens, some 59, or about two-thirds, had used 
immigration benefit fraud either to enter into the United 
States or to embed themselves in the United States once they 
got here.
    If we don't address immigration from all aspects, then I 
think we are going to have a very serious problem. And 
intelligence is only a part of the metrics; we also need to 
look at the visa waiver program as well.
    I know my time is up. I thank you for your indulgence, and 
I look forward to your questions.
    Mr. Simmons. Thank you for that insightful statement. We 
appreciate the breadth of experience you bring to the issue.
    [The statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler

    Chairman Simmons, ranking member Lofgren, members of Congress, 
ladies and gentlemen, I welcome this invitation to appear before you 
today at a hearing that I believe is of critical importance to the 
safety of our citizens and indeed to the very survival of our nation.
    The gathering of effective intelligence is essential for effective 
law enforcement and for issues relating to national security. Nothing 
can be of greater significance than the issue of developing effective 
intelligence, that is to say, the culling of accurate information and 
understanding its place in the overall picture. Intelligence should be 
thought of as being comparable to the way that a digital photograph is 
made. A digital photograph is comprised of a huge number of elements or 
pixels, which are placed in the proper location to paint a clear 
picture. As the number of pixels increases, the clarity of the photo 
increases proportionately. So too, the clarity of the picture painted 
by effective intelligence is proportionate to the quantity and quality 
of the intelligence or nuggets of information that can be gathered and 
placed in the proper position in the mosaic that makes up the overall 
picture. The ability to understand the significance of each kernel of 
information, also contributes to the clarity of the picture that the 
intelligence will create.
    Effective intelligence also requires that it be disseminated 
quickly to the ultimate users of the intelligence. It has a short 
"shelf life" and therefore where critical intelligence is concerned, 
time is of the essence. Pixels do not lose their value over time, 
intelligence does. Additionally, it is important to understand human 
nature. Approximately 400 years ago Sir Francis Bacon said, "Knowledge 
is power." That statement is as true today as it was when he first said 
it. Various federal agencies realize that intelligence that they 
possess provides them with a certain amount of power and therefore 
their members have been reluctant to share their knowledge with other 
agencies. However the point to intelligence is to protect our nation 
and intelligence that is critical today will become worthless in a very 
short period of time. That is why it must be freely and expeditiously 
shared with those who truly possess the "Need to know."
    It is also worth noting that intelligence comes from many sources. 
It comes from electronic surveillance and other high-tech means and 
also comes from low-tech sources; informants who are willing to talk 
and field personnel who make observations in the field when they find 
documents and other materials that yield valuable information. That is 
why it is essential that field agents understand that they have a vital 
role to play in the development of intelligence. They are our 
government's eyes and ears on the ground and their discoveries and 
insights are invaluable. Because of this, not only must they be 
provided with accurate intelligence to help them do their jobs, they 
must also be provided with an opportunity to share their observations 
with intelligence analysts who may be able to take seemingly 
unconnected observations and even "hunches" and weave them into a 
tapestry of effective intelligence.
    I would like to share with you an experience I had approximately 20 
years ago which is as relevant today as it was when it occurred. Back 
then I was assigned to a unit of the former INS in New York that was 
charged with finding illegal aliens who were working illegally in the 
United States. My colleagues and I were in the process of arresting a 
number of illegal aliens who were working in a diner in Staten Island, 
New York when one of the illegal alien employees, a citizen of Egypt, 
fled the restaurant when he realized we were present. He made an 
exhaustive although ultimately futile effort to evade us and we 
succeeded in taking him into custody. We took him back to his apartment 
to attempt to retrieve his passport, a standard procedure, since his 
passport would be helpful in positively identifying him and determining 
his date place and manner of entry into the United States. His passport 
would also be useful in arranging for his deportation should the 
immigration judge order him deported. With his consent, we entered his 
apartment and were surprised to find that there were numerous 
department store shopping bags lining one of the walls in his sparsely 
furnished apartment. These bags were filled to the very top with 
hundreds upon hundreds of coupons for all sorts of merchandise ranging 
from dog food to detergent to cereal. He had no meaningful explanation 
for this but we had no way of making any inquiries to understand the 
possible significance of those coupons. We retrieved his passport and 
he was ultimately deported. Several months later I was shocked to learn 
from a televised news program that the PLO had sent a number of their 
people to the United States to engage in coupon fraud in order to fund 
terrorism in the Middle East. Purportedly this tactic netted the PLO 
millions of dollars in ill-gotten funds. This young man who was 
seemingly engaged in nothing more sinister than washing dishes in a 
diner was apparently an operative of a terrorist organization. We had 
him in custody and we deported him, losing a potential treasure trove 
of intelligence from a terrorist operative or at least terrorist 
sympathizer. To this day I wonder what intelligence we might have 
gained had we understood the significance of the shopping bags filled 
with coupons on the day we arrested him. I also wonder where he is now 
and what efforts he might be engaged in that pose a threat to our 
nation or our allies today.
    If the news media understood the significance of coupon fraud, why 
did not the former INS make certain that their field agents were aware 
of such activities? Keeping our law enforcement personnel in the dark 
not only keeps them from being as effective as possible at carrying out 
their day to day duties, it also keeps them from recognizing situations 
that may make their jobs more hazardous and also prevents them from 
pressing an investigation further, where the results might yield highly 
critical information.
    This is also the reason that I am greatly concerned when I hear 
members of the administration talk about the need to conduct field 
investigations where critical infrastructure facilities are concerned 
such as airports and nuclear power plants but where limited resources 
make routine immigration law enforcement a non-priority. Certainly it 
is vital that we make certain that we make vital infrastructure 
facilities as secure as possible and not only where hiring illegal 
aliens is concerned, but from other perspectives as well. However, as 
we have seen in a number of terrorism investigations over the past 
several years, many of the suspected terrorists who have been 
identified and arrested have not worked as such sensitive locations as 
airports and nuclear power plants, but had relatively "pedestrian" jobs 
driving taxi cabs and ice cream trucks as well as teaching in schools 
and working in used car lots. The goal of terrorists is to "hide in 
plain sight" or in the parlance of the 911 Commission, to "embed" 
themselves in our nation.
    The routine enforcement of immigration laws can provide our 
government with the opportunity to cultivate informants and provide 
essential insight if our agents are properly briefed and properly 
debriefed. They need to be encouraged to come forward whenever they 
make observations that arouse their suspicions or curiosity and need to 
have an easy way to report on their findings in the field.
    Finally, we also need to provide our field personnel at ICE with 
appropriate training, including foreign language training. When I 
attended the Border Patrol Academy in 1972 I was required to 
successfully complete a Spanish language training program as were all 
enforcement personnel who were hired by the INS. Today, incredibly, 
that foreign language training is not only not required, it is not even 
offered for newly hired special agents of ICE. As I have stated at 
previous Congressional hearings at which I have testified, you simply 
cannot investigate people you are unable to communicate with. It is 
absolutely essential that our ICE personnel be given Spanish language 
training and they also need to be trained in various strategic 
languages such as Arabic, Farsi and Urdu to name a few. They also need 
to be given on-going training to properly identify fraudulent and/or 
altered identity documents, since these documents are the linchpins 
that hold the immigration system together. From what I have been told, 
this training is far from adequate at present, and this is not in our 
nation's best interest. I would remind you that the terrorists who 
attacked our nation on September 11, 2001 used multiple identities and 
false documents as well as documents that were improperly issued to 
them, in order to embed themselves in our country as they prepared for 
the horrific attacks that they launched against our nation and our 
people on that terrible day.
    I look forward to your questions.
    Mr. Simmons. Mr. O'Hanlon.

STATEMENT OF MICHAEL O'HANLON, SENIOR FELLOW IN FOREIGN POLICY 
                 STUDIES, BROOKINGS INSTITUTION

    Mr. O'Hanlon. Thank you, Mr. Chairman and Congresswoman. It 
is an honor to be here. I will try to be very quick. I just 
want

[[Page 37]]

to make one broad comment. Having listened to the great 
expertise this morning and learned a lot myself, I think it 
highlights, if you put it all together, one broad observation, 
which is that intelligence is very important clearly at land 
border crossings, but we are never going to have good enough 
intelligence to find individuals and be able to target Border 
Patrol assets accurately. Our only hope using intelligence 
really is at the places where people come through official 
points of entry. That is where we spotlight attention.
    So this leads me to a couple of broad conclusions. While I 
think we do need to keep working on intelligence capability for 
land crossings, we are never going to know enough about coyotes 
and about preferred points of entry and so forth to have that 
be a reliable way to stop people. It takes very good luck to 
find someone, it is going to always take very good luck, which 
leads me to think we need to continue to increase capacity 
first to seal those borders to the extent possible, even though 
we all know it is not theoretically truly possible.
    Secondly, to be able to do a very good job at official 
points of entry in certain areas where we are not doing very 
well right now, I think we need to be making inquiries of a lot 
more passengers inside of cars at official points of entry and 
not simply hoping that the driver's identity gives us a 
sufficient tip as to whether that car is suspicious.
    And I also think that, in keeping with some of the comments 
that have just been made, we do need to think hard about better 
forms of identification for American citizens, standards for 
driver's licenses, possibly even national ID cards.
    The 9/11 Commission, I think, was quite convincing on these 
points. Americans have a very strong civil liberties concept on 
our Nation's history and in our thinking, and therefore, there 
is always pushback against this sort of idea. But I think 
tougher standards on driver's licenses and other forms of 
identification are critical, because we have to always be 
looking inside the country, too, because we are going to have 
people keep crossing across the land borders. That is never 
going to be sealed enough, and we can't assume that 
intelligence is going to ever get good enough to solve that 
problem.
    So, official points of entry, whether it is people coming 
through or cargo coming through, we need more capacity, more 
capacity for land borders to reduce the likelihood of people 
getting through because intelligence is not going to help us 
pinpoint to know exactly when and where to look for whom. We 
are going to have to try to increase general capability across 
that land border. And in general, on sort of a broad unfocused 
note, but more, more, more. We need more capacity in general 
because intelligence is never going to be smart enough to tell 
us when and where to look for whom. And I will stop with that 
simple point.
    [The statement of Mr. O'Hanlon follows:]

                   Statement of Mr. Michael O'Hanlon

    Border protection is a critical pillar of homeland security. It 
keeps dangerous people and materials out of the country before 
terrorists can even get into a position to attack. In other words, it 
is preventive in nature-and thus represents an optimal approach to 
homeland security policy, as my coauthors and I argue in our new 
Brookings book, Protecting the Homeland 2006/2007.
    Border protection should not be principally viewed as a literal 
defense of the nation's perimeter. It is not tantamount to the creation 
of a moat around American borders. Rather, it is a set of efforts that 
exploits the fact that people and goods are relatively easily monitored 
when they arrive at checkpoints. In other words, movement across 
borders allows spotlighting to occur. To be sure, some border 
protection functions represent something closer to the direct physical 
protection of borders-most notably, the efforts of the border patrol 
along the long perimeters of the United States, as well as some 
activities of the Coast Guard and the Department of Defense. But the 
spotlighting role is even more critical. Its failure is what allowed 
the 19 September 11 hijackers to enter the country. Similarly, the 
nation's inability to know accurately what goods are coming across its 
borders have much more to do with holes in the official inspection 
process-that is, with the spotlighting function-than with the 
weaknesses of our national walls.
    Done right, border security activities can offer additional 
benefits beyond the homeland security sphere, meeting another one of 
our four recommended guidelines. Digitized and computerized borders can 
allow more dependable and rapid movement of people and goods in and out 
of the United States. They can also provide better knowledge of where 
ships and goods are when in transit. That in turn translates into, 
among other things, a greater ability to prevent or respond quickly to 
other dangers such as piracy and ship accidents that can afflict trade 
and travel. This should be the goal of tighter border protection; we 
must avoid the risk of borders turning into chokepoints. Homeland 
security efforts should reinforce, not compete with, economic 
competitiveness.
    America's geography generally helps in the effort to monitor 
borders and to use them as a means of funneling goods and routing 
people through places where spotlighting is possible. But the country 
has two long land borders that remain very difficult to guard. And they 
are far from the only main challenge facing this domain of homeland 
security. This testimony considers a number of relevant problems, as 
well as the general matter of aviation security, which is in part a 
matter of border protection. Its conclusions, in short, are that there 
is no magic bullet for keeping illicit goods and people out of the 
country, and no easy analytical way to deduce what level of increased 
inspection or monitoring capacity would be sufficient for national 
security. Ongoing efforts since 9/11 have been headed in the right 
direction, however, and the gradual increase in capacity for monitoring 
borders as well as goods should continue. In addition, some additional 
policy steps such as much more uniform standards for drivers' licenses 
are called for.

Monitoring of People
    There has been progress in regulating and monitoring the movement 
of people into the United States. It is much harder for individuals to 
gain access to this country while disguising their true identities, 
particularly for those on terror watch lists. Notably, someone trying 
to fly into an airport from abroad is unlikely to get through under 
their own name if on a terrorist watch list, and indeed is unlikely to 
be allowed entry even under a false name if his or her fingerprints are 
already on file. This is a major step forward since 9/11.
    Other useful measures have also been adopted. For example, the 
Student and Exchange Visitor Information System (SEVIS) now appears to 
be functioning quite well in helping track those foreigners in the 
United States on student visas. Those who overstay visas can be more 
quickly identified and located.
    Biometric indicators are used increasingly to control foreign 
travel. The U.S.-VISIT program requires foreign visitors from all 
countries except Canada to submit to fingerprinting (of right and left 
index fingers) and digital photography upon arrival in the United 
States. A complementary program, the State Department's Biometric Visa 
Program, requires that fingerprints be taken of visa applicants before 
travel to the United States and compared to those in a DHS database 
(known as IDENT) consisting of some five million individuals, some of 
whom are ineligible for American visas. Upon arrival in the United 
States, visitors' fingerprints taken by DHS under the U.S.-VISIT 
program are also checked against those on the visas to confirm that the 
individual in question is indeed the one to whom the visa was granted.
    To reduce the chances that individuals planning terror attacks will 
find a legal way into the country and then overstay their visas, it 
would be useful to record exits in real time from the United States. 
Those remaining longer than they should could then be more easily 
identified and pursued (as the 9/11 Commission recommended).
    A remaining problem in air travel security arises from what is 
known as the Visa Waiver Program. Until digitized passports with 
biometric indicators are widely used by qualifying countries, the visa 
waiver program (VWP) will continue to constitute a substantial loophole 
in U.S. border security, given the prevalence of stolen and forged 
passports around the world. While individuals entering under VWP are 
still checked upon entry, there is less ability to interview them 
thoroughly when required if such activities must be carried out at the 
actual border.
    This circumstance argues for some other level of screening of 
individuals from VWP countries before they can board flights for the 
United States. For example, DHS security personnel could be deployed at 
foreign airline check-in counters in certain VWP countries (as Israel 
does with El Al flights).
    Terrorist watch lists also need to be improved. The United States 
is presently consolidating some dozen watchlists into a single 
terrorist screening database (TSDB) using more extensive data in the 
terrorist identities database (TID) that is also now being constructed. 
(The effort to construct the TID began with the previous gold standard 
of terrorist watch lists, the State Department's TIPOFF list. The list 
was subsequently scrubbed and expanded by consolidating it with other 
databases.) Some new specialized watchlists with limited information 
(easier to share with people not possessing security clearances) are 
being created as well, such as the Secure Flight database to assist in 
monitoring aircraft passengers and improve the accuracy with which 
their names are matched against those of suspected terrorists. 
Thankfully none of the watchlist consolidations have turned into 
complete fiascos, as the FBI's attempts to computerize its case files 
unfortunately has. But the consolidation and integration process 
remains slow. For example, Secure Flight had not yet been tested as of 
September 2005.
    Even digitized passports with biometric indicators cannot track new 
recruits with no known ties to terrorist organizations. It is therefore 
important to recall that there are inherent limitations to these sorts 
of terrorist tracking efforts. This is one clear example of the reason 
why a multi-tiered strategy for homeland security is imperative.
    The problem with screening people also works in the opposite 
direction--keeping good people out while they wait for security reviews 
to be completed. This is true for example for foreign students, who 
when screened through the so-called Visas Mantis program have had to 
wait months for their visas in many cases. Improvements have been 
underway in these programs, including allowing students to get a single 
visa for an entire period of study (rather than requiring annual 
renewal). But there are still long delays. This problem also applies to 
individuals trying to enter the country to conduct business, seek 
medical care, or pursue other important matters.
    The student problem has not truly become severe. While the 2003/
2004 academic year did register a 2.4 percent decline in foreign 
students relative to the year before, the number of foreign students 
remained greater than in 2000 or any year before. Moreover, numbers of 
applications from the Middle East to U.S. graduate schools actually 
increased in both the 2003-2004 and 2004-2005 academic years (while 
numbers from China, India, and Korea continued to fall). Indeed, the 
overall number of foreign students in the United States was 4.5 percent 
greater in 2004/2005 than just before the September 11, 2001 attacks, 
though there was a decline of 14 percent in Middle Eastern students. 
And the U.S. figures were not notably worse than those witnessed in the 
United Kingdom. That said, the problem could again intensify--and could 
affect some of the most talented individuals in the broader foreign 
student pool, convincing disproportionate numbers of them to go 
elsewhere. Further measures to address this problem, such as increases 
in government capacity for processing such paperwork, are therefore 
warranted.
    In situations involving certain non-western countries, American 
technical and financial help may be needed to ensure good border 
security and travel controls. The simple fact of the matter is that the 
United States has a greater interest in tracking the movement of many 
terrorists than do developing countries. Even when that is not the 
case, many countries will not have the resources to do all they should 
given the urgency of the threat. Seen in this light, President Bush's 
June 2003 East Africa Counterterrorism Initiative (EACTI) is a good 
step in the right direction. It provides $100 million to improve border 
control, police, airline security, and related homeland security 
operations in a region that has been hit hard by terrorist violence. 
The latter includes the 1998 U.S. embassy bombings in Kenya and 
Tanzania and the 2002 attacks on a hotel and airline in Kenya (the 
latter thankfully not successful), not to mention ongoing civil strife 
in places such as Somalia. This is enough money to make a real 
difference in a region of relatively low incomes. But these funds were 
apparently taken in large part out of existing programs, meaning that 
their net beneficial effect is difficult to ascertain. And similar 
programs are probably needed in other regions such as Central Asia.
    Ensuring adequate capacity to screen individuals and issue visas, 
as well as proper means for verifying their identities, helps the 
United States beyond the homeland security arena. It can expedite the 
movement of people into the country who can contribute to the economy, 
and who can ideally become goodwill ambassadors as well as important 
contact points for the United States once they return home. Whenever a 
homeland security program can have additional benefits beyond that 
immediate objective, it is especially worthy of serious consideration 
and serious support.

The Special Problem of Land Borders
    The preceding discussion pertains generally to the movement of 
individuals to and from the United States. But monitoring the movements 
of people at land borders poses special problems. It also offers unique 
opportunities, underscoring our theme about the need for greater 
international cooperation in the "homeland" security effort. To the 
extent Canada and Mexico make it hard for terrorists to use their 
countries as staging bases or waystations, the United States benefits 
from an added line of defense of its own country. That does not make 
its own border enforcement job unimportant, but it does allow a 
somewhat greater (and more realistic) margin for error at that 
inherently difficult line of defense. If Canada and Mexico improve 
their own monitoring of persons traveling into and out of the country, 
only modest additional improvements may be needed in border security 
along the U.S.-Canada frontier, and other lines of protection in the 
broader homeland security arena may become more effective.
    The United States has 216 airports, 143 seaports, and 115 land 
facilities that are official ports of entry, at a total of 317 places. 
Those land facilities generally involve car and truck traffic that is 
especially difficult to regulate. In addition, of course, land borders 
are very hard to control in between official points of entry. At many 
official checkpoints, passengers in cars are not checked as long as 
they are in vehicles with legitimate license plates. This policy should 
be changed. Care must be taken to do it in a way that does not 
seriously slow movement at checkpoints, with resulting consequences for 
commerce as well as convenience of travel. That suggests that the 
change in policy will have to be gradual to allow time for more 
inspectors to be hired and new procedures to be developed (such as 
adding lanes at checkpoints). Given typical car passenger loads, it may 
be necessary to increase staffing by as much as 100 percent.
    Open land borders are also a serious problem. For example, U.S. 
land management agencies are responsible for the 30 percent of the 
borders owned by the federal government. Yet they have only 200 full-
time law enforcement officers, a number increased by just 20 percent in 
the first two years after September 11. Such numbers cannot begin to 
credibly monitor or prevent off-road border crossings.
    Such limited vigilance of U.S. land borders is a mistake. It can 
deprive the country of the opportunity to "spotlight" people 
effectively at official points of entry, thereby blunting one of the 
very best homeland security tools that the United States and the 
international community in general possess. There are relatively few 
dependable ways to search for terrorists among the huge throngs of 
individuals on the planet; this needle-in-haystack effort requires some 
means of rendering people visible, and official border crossings can do 
that. So it is especially important to ensure that individuals pass 
through such locations when traveling.
    Take for instance the sparsely guarded Canadian border, which can 
be an important means of entry. The Patriot Act led to a tripling of 
the number of U.S. agents along that border, but the total remains just 
under 1,000 for an enormously long and porous border, and there is 
little reason to think the number adequate. The United States also 
needs an integrated plan involving increased, random patrols and better 
equipment for surveillance and mobility for the U.S.-Canada border, as 
well as better cooperation with Ottawa in this effort. There is 
movement in the right direction. DHS is developing a way to have 
response capability anywhere within an hour of notice of a problem, and 
to improve monitoring as well. This might not help with the "lone wolf" 
terrorist sneaking through the woods, but could pick up illicit vehicle 
movements or groups of individuals. Five DHS bases near the Canadian 
border are being created to help in the effort. Overall, this border is 
better protected than before, and will soon be monitored even more 
effectively. But the absolute numbers of U.S. capabilities are still 
extremely modest, suggesting an enduring problem.
    Although few Canadians would pose major terrorism-related concerns, 
Canada's efforts to monitor its own borders against terrorist 
infiltration are wanting in a number of areas. For example, its coast 
guard does little to monitor Canada's long shorelines and cruise ships 
coming ashore do not have passenger manifests examined. This 
underscores the importance of Canada improving its own regulations on 
individuals visiting the country, but also means the United States must 
assume that foreign terrorists may try to reach this country via our 
northern neighbor.
    A greater worry is the Mexican border, where despite the presence 
of almost 10,000 border agents, an estimated 4,000 illegal aliens cross 
per day. They are mostly Latinos, but also include individuals from 
countries such as Afghanistan, Egypt, Iran and Iraq with a greater 
corresponding risk of possible terrorist infiltration. Intelligence 
reports express concern that al Qaeda may indeed try to exploit the 
porosity of this border and infiltrate operatives through it.
    A rough benchmark for the above proposals to increase monitors at 
borders is that adding 1,000 employees costs the government $100 
million. So the costs associated with the above proposals might be 
roughly $1 billion a year, if the doubling of inspectors recommended to 
monitor passengers in vehicles crossing the border were matched by 
comparable increases in other aspects of the border protection effort. 
Accurately estimating the appropriate number of additional inspectors 
is beyond the scope of this analysis, but the above number gives a 
reasonable ballpark. The number of inspectors has grown by 5,000 over 
the last decade, with some beneficial effect on estimated infiltration 
rates. Indeed, it possibly reduced them by one-third, though it is 
admittedly difficult to be sure of the exact numbers as well as the 
true causes of any decline. It makes sense therefore to continue on the 
same trajectory while also introducing new operational procedures and 
new technologies--such as UAV patrols, the sea wall near San Diego, and 
America's Shield Initiative involving multispectral sensors and cameras 
as well as magnetic and seismic detectors. The Bush administration's 
idea of using National Guard forces as a temporary means of 
supplementing DHS personnel at the borders seems in this light to be a 
good idea.
    The right policy is to start increasing border patrol personnel 
year by year in significant numbers and then attempt to modify 
procedures to improve border monitoring. As experience is gained, it 
can then be determined more accurately how many will be enough. 
Unfortunately, the Bush administration's request for additional border 
agents in 2006 totaled just 210 individuals, a far cry from the scale 
of increase that would be appropriate, given the present porous nature 
of the country's perimeter. But Congress wisely added $600 million to 
the president's request in this area, enough for 1,000 additional 
agents.
    The database used by DHS's Border Patrol, IDENT, is not fully 
integrated on a national scale with other databases. IDENT uses a photo 
and two fingerprints, whereas the FBI's IAFIS (or Integrated Automated 
Fingerprint Identification System) uses all ten fingerprints. 
Reportedly, all U.S. Border Patrol stations now have interoperable 
systems capable of accessing IAFIS records and cross-checking the 
Border Patrol's IDENT entries against those records. But Border Patrol 
agents cannot access the consolidated name-based terrorist watchlist 
maintained by the Terrorist Screening Center at their stations.
    Another problem is that the consular identification cards issued to 
their own citizens by some foreign governments, including Mexico, can 
be fraudulently obtained fairly easily. They are often used for 
identification in the United States. Lax standards for such cards 
cannot be tolerated. The United States may need to consider 
contributing seed money to encourage Mexico in particular to develop 
more rigorous and real-time databases of possible terrorists as well as 
better ID technology of its own. At present, the United States has a 
plan to require visitors crossing the Canadian or Mexican borders to 
present a passport or one of four other hard-to-counterfeit documents. 
But that plan is not due to be implemented before December 31, 2007.
    Summing up, the land border security problem poses three special 
challenges. One, making sure that smaller border crossing posts receive 
up-to-date technology to become full participants in new efforts such 
as U.S.-VISIT, is mostly a matter of taking the problem seriously and 
providing adequate funds. A second, improving screening of individuals 
in cars--and working toward a standard by which all who pass through a 
land border are checked-is more demanding conceptually, though surely 
doable. It will take new procedures not yet developed. They could slow 
crossings dramatically, however, so considerable work is needed to add 
inspectors and increase the numbers of lanes at key crossings. Third is 
a problem for which solutions have not yet been successfully 
conceptualized, even in theory--closing down U.S. land borders to 
illegal infiltration, which is of course linked to broader U.S. 
immigration policy. More technical and human resources to monitor 
borders are generally well-advised to mitigate the problem, but are 
unlikely to solve it--again underscoring the need for a multi-tier 
approach to homeland security that begins by pushing America's own 
borders "outward" and improving cooperation with other countries' 
parallel homeland security efforts.
    There is clearly also a major benefit to improving border 
monitoring outside the homeland security domain. It is an important 
means of reducing illegal immigration, with all of its associated 
economic and political repercussions. Thus, focusing on land border 
controls within a homeland security strategy is consistent with the 
principle, as presented in the introduction, that the United States 
should be especially keen to pursue programs with multiple benefits. 
Indeed, the United States and Canada might push this logic one step 
further and consider another crossing point in the Detroit/Windsor area 
(where more than $100 billion of trade occurs annually between the two 
countries). If built outside of the immediate urban areas, it would not 
only provide backup in case a major bridge were destroyed, but reduce 
traffic congestion under normal conditions.

    Mr. Simmons. I thank you both for your comments.
    My recollection--and I couldn't find it right away in the 
book--is somewhere in the 9/11 Commission report it made some 
interesting statements about who is to blame and what went 
wrong. And the Commission stated that our aim has not been to 
assign individual blame, which is a position that I also agree 
with. If anyone

[[Page 38]]

is to blame, we are all to blame. We are all to blame because 
after the Cold War ended, we felt that there were no threats, 
no real threats, that were presented against us, and certainly 
in those days not the threat of terrorism, which was a 
nonsovereign nation, nongovernmental-sponsored activity.
    But somewhere else it says that some of our failures were a 
failure of imagination; a failure of imagination. I have used 
the image of the Great Wall of China to try to illustrate what 
I consider to be the fundamental problem. We have such 
extensive borders. We are engaged economically, socially, 
politically with the rest of the world on an hourly basis, much 
less a daily basis. We have a set of standards and values with 
regard to rights and liberties that make us the most open and 
free country in the history of the world, and yet that very 
freedom allows those who hate us to attack us. I mean, this is 
a huge problem.
    And I guess you can take pieces of it, like language 
training, pieces of it like who is on a certain port of entry 
and how are they trained and how many are there, but I think we 
have to apply imagination as well. And I guess that, to me, is 
where intelligence does come in. We don't have perfect 
security, we never will, but how--you work for the 
Congressional Budget Office, I believe--
    Mr. O'Hanlon. I do.
    Mr. Simmons. How do we apply those resources intelligently? 
If we have 200 on the border, is 1,000 going to solve the 
problem; or should we have 800 at the border and the money for 
200 go to mandatory language training? How can we apply our 
imagination to this problem for which we don't have unlimited 
resources, Mr. Cutler?
    Mr. Cutler. Well, one of the things that we seem to have 
developed a fixation is high technology, and sometimes that can 
be very good. But there was a story not long ago about--I think 
it was 220--or $230 million that was spent on cameras on the 
border. Cameras don't make arrests. Half the cameras, as it 
turned out, didn't work.
    You know, I am a New Yorker. The ashes of 9/11 actually 
landed on my house. And I have been working as a volunteer with 
9/11 Families for a Secure America who lost their family 
members. I can't tell you how many yellow ribbons are tied to 
my neighbors' trees. It is a constant reminder to me about our 
failings.
    And I have arrested terrorists in my career. And sometimes 
you get to play a hunch, and when I was a new agent, I had a 
guy come in at the airport, and he had an altered visa. And he 
kept calling Israel Palestine. He had an Israeli passport. We 
dug a little deeper. Long story short, he had a diagram in his 
possession, and the diagram was of their oil refinery. He was 
here to get the money to blow it up. We eventually prevented it 
from happening, and that was in my first year as a special 
agent. I had 30 years in with the INS. But what it taught me is 
playing hunches and freeing people up to sometimes follow that 
wild idea, but not with technology as much as with human 
resources.
    Mr. Simmons. If I could interrupt for just that point. When 
Commissioner Kelly and Mayor Bloomberg say we need the Federal 
Government to give us dollars for human beings, there is a lot 
of value in that.

[[Page 39]]

    Mr. Cutler. There is absolutely a lot of value. And I like 
that comparison because I want you to think about something. It 
is estimated that right now there is about 15--, 20 million 
illegal aliens in the United States, depending on whose 
statistics you want to read. New York has 8 million residents. 
We are the safest big city in the United States because we have 
37,000 cops. We have less than 10 percent the number of Special 
Agents to enforce the immigration laws with double the number 
of people as there are residents in the city of New York, and 
they are scattered across a third of the North American 
continent. That is not a workable situation.
    When I hear about these so-called successes that ICE broke 
up a ring that brought in 50 or 60 or 80 people, and we are 
dealing with millions of illegal aliens, I am sorry, it leaves 
me not feeling very confident. We need to make the effort to do 
a far better job and dedicate the resources. We can't do it on 
the cheap, but look at what 9/11 cost us, besides the precious 
human lives which no money can replace.
    Mr. Simmons. Mr. O'Hanlon.
    Mr. O'Hanlon. Congressman, just a very brief point. I am 
glad you pushed me on the issue of priorities. We do need to 
establish priorities, and there are proposals in Homeland 
Security that I think are excessive, but not usually on the 
prevention end of things. Most of what I think you are 
considering in this committee today and in general are border 
protection problems, intelligence. These are on the front end, 
the preventive end, and that is where we should be emphasizing 
in general.
    So I know I gave a bit of a broad-brush comment that most 
of the things we touched on today require more resources, and 
in one sense that can never be a good enough answer. But I 
would prioritize preventive areas of activity over consequence 
management. We need some capacity for consequence management, 
but some of the ideas I have heard in the homeland security 
debate in the last 5 years to equip most first responders in 
the country with state-of-the-art chem gear or interoperable 
radios, or have them drill several times per month in terms of 
response to incidents that have already occurred that we didn't 
stop, some of these are excessive, and that is where you can 
spend too much. More of the money should be spent on 
preventative efforts, on intelligence and on border protection.
    Mr. Simmons. I really am glad to hear you say that.
    And for you, Mr. Cutler, my daughter's apartment was so 
close to Ground Zero that she never reoccupied it after 9/11. 
She now lives in Brooklyn and works in Manhattan. So, like you, 
this is a daily--
    Mr. Cutler. I hope she is going okay today.
    Mr. Simmons. She is physically--
    Mr. Cutler. I don't think any New Yorker has been the same 
after that.
    Mr. Simmons. No. Well, two of her four roommates went down 
with the building.
    Mr. Cutler. I am so sorry.
    Mr. Simmons. The gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman.

[[Page 40]]

    All of us, even those of us in California, were touched in 
some way by 9/11. The valedictorian of my high school class, 
Naomi Solomon, was on the Windows on the World that morning, 
and we lost her. So this is something that touched the whole 
country, and something that we are committed to preventing 
again.
    I don't have a lot of questions because both witnesses have 
been very clear. I would note just for the record, a little 
parochialism here, that although San Jose may not seem like a 
big city to New York, it is the 10th largest city in the United 
States and has the lowest crime rate of any major city in the 
United States, just for the record.
    Mr. O'Hanlon, thank you for the book that you coauthored. 
The Chairman has suggested that I get your autograph on it, 
which maybe we will do after the hearing. But I did want to 
talk a little bit about your comments on page 103 about IDENT, 
the database used by the Border Patrol, and that it is not 
fully integrated on a national scale with other databases. And 
this is something that bothered me from the very beginning, and 
I asked about this both in the Homeland Security Committee, the 
Science Committee and the Judiciary Committee on why we were 
not going to have interoperability, and even asked NIST how 
long and how much would it take to integrate this. And for 
reasons I cannot understand, we never took care of that.
    And as you point out, the FBI now has an integrated 
automated fingerprint identification system using all 10 
prints, and the Border Patrol now have interoperable systems 
capable of accessing IDENT and the IAFIS records, but they are 
not interoperable, and they don't have access to the 
consolidated name base terrorism watch list.
    What do you think needs to be done here? I mean, it is 
heart-breaking actually that we didn't plan at the beginning, 
and now we have this proliferation? What should we do? How much 
is it going to cost?
    Mr. O'Hanlon. Thank you for the question.
    I am glad you are pursuing it, because, speaking honestly, 
from the point of view of an analyst, it is hard to keep track 
of this for two reasons: One, some of this is classified. 
Secondly, when you are doing a book, there is a lag time 
between when you write and when it is published. This has to be 
followed up in real time continually, and they are making 
progress, as I understand things, at integrating these two 
different systems.
    So I think the broad story of integrating the terrorism 
watch list in the last 5 years, thanks in large part to the 
scrutiny of committees like this, is that we have a progress.
    Ms. Lofgren. The sad thing is they could have been the same 
system at virtually no additional cost to the country.
    Mr. O'Hanlon. But the reassuring news, despite that, is 
that we are essentially sharing names in one way or another at 
this point, even though there are these inefficiencies, and it 
took us too long, and thank God we weren't attacked in the 
meantime.
    Ms. Lofgren. But the names yield false positives all the 
time. It is the biometrics that really give you--I mean, you 
can do one false identification, but only one; I mean, once you 
have got their biometrics.
    Mr. O'Hanlon. Well, you summarized it as least as well as I 
could.
    I will just make one additional point, if I could, which is 
on the visa waiver program and visa issues, we typically give 
our European friends a hard time, as we should, for being too 
slow in some of their upgrades, but they have, I think, one 
thing right that we need to reconsider, which is they realize 
fingerprints are the way to go, or something better, with IRIS 
for example. We are still relying too much in visas on 
photographs; not a good way to do biometric-reliable 
identification.
    Ms. Lofgren. Well, I would just note that the other concern 
that I have--and then I actually am supposed to chair a meeting 
over in the Capitol 20 minutes ago--but the US-VISIT is not 
interoperable in terms of the algorithms and the biometrics 
with the other systems. So we are building up data that 
ultimately I think we are going to have to go back in and redo. 
And did you have an opportunity to examine that, along with the 
IDENT, the other issue here that you mention in this chapter?
    Mr. O'Hanlon. My broad sense is that, to the extent we can 
understand this problem, we have had a lot of inefficiencies 
and delays, but ultimately we are working towards systems that, 
however inefficient, however much different from one another 
where they don't need to be, at least now you do have the 
ultimate information, which is the names of the individuals, 
being shared in much better real-time ways. It has taken too 
long, it has been too slow, and thank God we haven't been 
attacked--
    Ms. Lofgren. Well, I appreciate it. My time is just about 
up.
    I would like to ask unanimous consent to put in the record 
an editorial from the San Jose Mercury News in yesterday's 
paper about immigration hearings, if I could, Mr. Chairman--
    Mr. Simmons. Without objection.
    Ms. Lofgren.--as well as thank the witnesses and give my 
opinion that in the end it is going to cost us billions to go 
back and redo these biometrics. And we could have done it for a 
couple of million if we had done it at the beginning.
    And I yield back and thank the gentlemen.
    Mr. O'Hanlon. I think you are right on cost, by the way.
    Mr. Simmons. And I would ask unanimous consent that the 
chapter you referred to in the book be copied and entered into 
the record, if that doesn't violate your copyright rules.
    Mr. Cutler. Could I make one fast point?
    Mr. Simmons. Please.
     Mr. Cutler. In 1997, I testified at my first congressional 
hearing, and the advice I gave them was the need to use 
biometrics. And after everything that I heard and saw 
afterwards, the fact that here we are almost 5 years after 9/11 
and we are still banging our head against the wall. You know, 
World War II ended in less than 4 years. And what frustrates me 
is we are not hitting the ground running, we haven't been, and 
we need to be, and that is something that concerns me 
tremendously.
    Mr. Simmons. I appreciate the comment. And I think that 
those of us who have been involved with the terror issue for 
any period of time--and for me it goes back pretty much to my 
service to the Central Intelligence Agency back in the mid 
1970s, certainly in 1979 when colleagues were seized in the 
embassy in Iran, and when my roommate was killed in the Beirut 
Embassy in 1983--we have always felt--or I have always felt 
that we need a consolidated database on terrorists just as we 
needed it for counterespionage, and if we had moved 
aggressively in the early 1980s to create those databases, we 
wouldn't have the problem that we have today. But 
unfortunately, there are several libertarian issues that arose 
at the time, and people felt that the focus on the Cold War was 
more important than a focus on this kind of unconventional war.
    Sadly, we have learned the hard way that you cannot ignore 
multiple threats, that the world is dangerous in multiple ways; 
that our democracy is threatened and our values are threatened, 
our people and resources are threatened in multiple ways. We 
can't pay for it all, so we have to be smart. And in the past 
mistakes have been made.
    Mr. Cutler. I just wanted to respond quickly. I know we are 
running long on time.
    The administration has been doing these operations to 
target airports and nuclear power plants, and I think we need 
to. I mean, that should be a given if it is a secure facility. 
But the idea of hiding in plain sight--you know, there was a 
terrorist suspect who was arrested in Lodi, California, who was 
driving an ice cream truck. That ice cream truck kept me awake 
for a couple of weeks.
    I spent half my career doing drug and terrorism 
investigations, and much of what I did also involved 
surveillance. When a bad guy gets into a car and drives for a 
half hour to a parking lot and meets somebody else, you know he 
has had a meeting. How many people approach an ice cream truck 
on a hot afternoon? How hard would it be to slip a memory card 
from a little PDA device into a $5 bill, pay for ice cream and 
get another one in return? And those things can hold over a 
gigabyte of data. There have been terrorist suspects driving 
taxi cabs. The guy that was involved with terrorism in Canada 
that drove a school bus, which gave him easy access to easily 
persuadable children, young men.
    So the problem is that if we focus on secure facilities, 
two things have happened, in my judgment: Number one, we are 
leaving out the broader potential that the bad guys are hiding 
in plain sight. Somebody once said that a spy is somebody that 
wouldn't attract the attention of a waitress in a greasy spoon 
diner. The point of fact is it might well be that the waitress 
or the waiter is the spy or the terrorist.
    But the other thing is we have also given the other side a 
playbook. Don't get a job in a nuclear power plant if you want 
to stay under the radar, get a job selling hot dogs right 
outside the gates of the nuclear power plant, and nobody will 
pay attention to you.
    The reality is that we need to have an immigration system 
that has integrity. For far too long this has been a fragmented 
effort. And one of the things I have testified at a few prior 
hearings was about the structure of ICE versus CBP. And 
literally it has been versus, where there have been barriers 
erected, noncooperation and

[[Page 43]]

so forth. We need a seamless operation. And this needs to be 
seen as a continuum, not simply if you get past the Border 
Patrol, you are home free. It is kind of like trying to play 
baseball and telling your outfielders not to bother showing up 
in the outfield, hit the ball over the second baseman's head, 
and you have got an in-the-park home run. And that is the way 
immigration has been enforced and administered for far too 
long.
    And I would also ask, I don't know if procedurally this can 
be done, but the GAO did a report that was issued on March 10th 
of this year that addressed the issue of immigration benefit 
fraud. And if we do everything possible on the border and made 
the border completely impermeable, if we don't get to the issue 
about how we give out residency and citizenship and do those 
other things that constitute the benefits program, it would be 
the same thing as a homeowner securing his house and putting 
strong doors and locks on his windows and doors, and then 
handing out the keys to anybody who walks by. So all the 
efforts on the border will mean nothing if the immigration 
system itself lacks integrity, in my judgment.
    Mr. Simmons. I agree with you completely. Just again 
referring back historically to the Soviet Union, Colonel Abel, 
who was one of the KGB's most successful spies, came through 
Canada, established himself as a photographer in Brooklyn, I 
believe, for 7 years, and only after 7 years was activated, and 
by that time he had established his bona fides. He was a member 
of the community, et cetera, et cetera.
    You know, sleepers commit espionage, sleepers commit 
terrorist acts, and we need to be imaginative in how we go 
about targeting these problems, because if we are not 
imaginative, we will simply build that Great Wall of China, 
take a look at it, say, well, you know, we have emptied the 
Treasury, so therefore we have done everything we can do 
because the Treasury is empty, we haven't spared a dollar, the 
taxpayers have been decimated, and we have got this big wall, 
but it doesn't work. Maginot Line bankrupted the French. Didn't 
work. So the challenge is to apply economics and imagination, 
as you have described, to the problem. And I thank you both for 
your testimony. It has been very insightful.
    And I would say that members of the committee who have 
additional questions for the witnesses, we will ask them to 
respond to these in writing. The hearing record will be held 
open for 10 days.
    Mr. Simmons. There being no further business, and without 
objection, I thank the members of the third panel for their 
excellent testimony, and the committee stands adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.

                        Questions for the Record

    [The information follows]:
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                 <all>

</pre></body></html>
